      Department of Homeland Security





                  DHS Involvement in OCDETF 

                   Operation Fast and Furious 





OIG-13-49 (Revised)                               March 2013

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
                                 Washington, DC 20528 / www.oig.dhs.gov

                                         March 22, 2013

MEMORANDUM FOR: 	               The Honorable John Morton
                                Director
                                U.S. Immigration and Customs Enforcement

                                The Honorable David V. Aguilar
                                Deputy Commissioner
                                U.S. Customs and Border Protection


FROM:                           	Charles K. Edwards                         

                                Deputy Inspector General

SUBJECT: 	                      DHS Involvement in OCDETF Operation Fast and Furious
                                (Revised), OIG-13-49

Attached for your action is our revised final report, DHS Involvement in OCDETF Operation Fast
and Furious (Revised), OIG-13-49. The original report contained several typographic errors,
which we have corrected in this revision. Please see the attached errata for details.

We incorporated the formal comments from U.S. Immigration and Customs Enforcement and
U.S. Customs and Border Protection in the final report. We also incorporated comments from
the Department of Justice, to which we provided a courtesy copy of our draft report because
our report mentions DHS employee perceptions of Department of Justice activities.

The report contains three recommendations aimed at improving U.S. Immigration and Customs
Enforcement. Your office concurred with all recommendations. As prescribed by the
Department of Homeland Security Directive 077-01, Follow-Up and Resolutions for Office of
Inspector General Report Recommendations, within 90 days of the date of this memorandum,
please provide our office with a written response that includes your (1) corrective action plan,
and (2) target completion date for each recommendation. Also, please include responsible
parties and any other supporting documentation necessary to inform us about the current
status of the recommendation. Until your response is received and evaluated, the
recommendations will be considered resolved but open.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security.

Please call me with any questions, or your staff may contact Deborah Outten-Mills,
Acting Assistant Inspector General for Inspections, at (202) 254-4015.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security

   Table of Contents
   Executive Summary ............................................................................................................ 1 


   Background ........................................................................................................................ 3 


   Results of Inspection .......................................................................................................... 8 


        Part One: ICE Headquarters Did Not Learn About Operation Fast and Furious 

        Methodology Until December 2010, and enior DHS Officials Did Not Learn of It Until 

        March 2011 .................................................................................................................. 8 


        Part Two: HSI Arizona Staff Learned of ATF Weapons Smuggling Investigation That

        Became Operation Fast and Furious, but the HSI SAC Did Not Understand

        ATF’s Methodology ..................................................................................................... 18 

        Several Factors Influenced the Decision to Dedicate an HSI Special Agent to

        OCDETF Operation Fast and Furious........................................................................... 40 

        Recommendation ....................................................................................................... 45 

        HSI Arizona Placed a Special Agent on Operation Fast and Furious, Did Not Provide 

        Oversight Necessary to Prevent His Participation in Activities that Violate ICE Policy,

        and Did Not Attempt to Improve the Investigative Methodology ............................. 45 

        Recommendation ....................................................................................................... 58 

        Recommendation ....................................................................................................... 60 

        CBP Had Minimal Involvement in the ATF Investigation and OCDETF 

        Operation Fast and Furious and Was Not Aware of the Flawed Investigative 

        Methodology .............................................................................................................. 60 


        Management Comments and OIG Analysis ................................................................ 61 



   Appendixes
        Appendix A:         Objectives, Scope, and Methodology ................................................... 64 

        Appendix B:         Management Comments to the Draft Report ...................................... 66 

        Appendix C:         ICE/ATF Memorandum of Understanding............................................ 68 

        Appendix D:         Major Contributors to This Report....................................................... 78 

        Appendix E:         Report Distribution ............................................................................... 79 





www.oig.dhs.gov                                                                                                                 OIG-13-49
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security

   Abbreviations

       AECA       Arms Export Control Act
       ASAC       Assistant Special Agent in Charge
       ATF        Bureau of Alcohol, Tobacco, Firearms and Explosives
       AUSA       Assistant United States Attorney
       CBP        U.S. Customs and Border Protection
       DEA        Drug Enforcement Administration
       DHS        Department of Homeland Security
       DOJ        Department of Justice
       DSAC       Deputy Special Agent in Charge
       FBI        Federal Bureau of Investigation
       FFL        Federal Firearms Licensee
       HSI        Homeland Security Investigations
       ICE        U.S. Immigration and Customs Enforcement
       ITAR       International Trafficking in Arms Regulations
       MOU        Memorandum of Understanding
       OBP        Office of Border Patrol
       OCDETF     Organized Crime Drug Enforcement Task Force
       OFO        Office of Field Operations
       OIG        Office of Inspector General
       RAC        Resident Special Agent in Charge
       ROI        Report of Investigation
       SAC        Special Agent in Charge
       USAO       U.S. Attorney’s Office




www.oig.dhs.gov                                                         OIG-13-49
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security

   Executive Summary
   The Department of Homeland Security (DHS) had minimal involvement in the Organized
   Crime and Drug Enforcement Task Force Operation Fast and Furious. Our review of DHS
   involvement in the operation determined that senior DHS officials in Washington, DC
   had no awareness of the methodology used by the task force to investigate Operation
   Fast and Furious until media reports were published in March 2011. These reports
   asserted that while investigating an international weapons smuggling ring, task force
   members used a dangerous methodology in which they observed suspicious weapons
   purchases, but took no effective action to seize the weapons. As a result, weapons were
   smuggled to Mexican drug trafficking organizations. Similarly, U.S. Immigration and
   Customs Enforcement (ICE) headquarters officials did not learn about the methodology
   until December 2010, when the operation was almost over. A Homeland Security
   Investigations Arizona official informed Homeland Security Investigations headquarters
   officials that two of these weapons were found at the scene of the murder of a U.S.
   Border Patrol Agent. However, the officials did not inform ICE headquarters staff that a
   Homeland Security Investigations special agent participated in the operation.

   In December 2009, Homeland Security Investigations Arizona personnel first obtained
   information about the Bureau of Alcohol, Tobacco, Firearms and Explosives investigation
   that later became Operation Fast and Furious. They learned that the Bureau of Alcohol,
   Tobacco, Firearms, and Explosives was investigating a suspected international weapons
   smuggling ring. However, Homeland Security Investigations Arizona personnel did not
   inform ICE headquarters about the Bureau of Alcohol, Tobacco, Firearms, and
   Explosives’ investigative methodology while the operation was underway. Most
   Homeland Security Investigations personnel in Arizona who received information about
   the investigation recognized that the task force was using a flawed methodology, which
   was contrary to ICE policy and practices for weapons smuggling investigations.
   However, the Homeland Security Investigations Special Agent in Charge did not draw
   the same conclusions about the operation from that information.

   When the investigation was certified as Organized Crime Drug Enforcement Task Force
   Operation Fast and Furious, the Homeland Security Investigations Special Agent in
   Charge agreed to the Bureau of Alcohol, Tobacco, Firearms, and Explosives’ request that
   he dedicate a Homeland Security Investigations special agent to the operation. He did
   so to ensure that smuggling statutes were enforced. Also, the Homeland Security
   Investigations Special Agent in Charge knew that the U.S. Attorney’s Office strongly
   supported the operation, and ICE headquarters had directed its staff to cooperate with
   the Bureau of Alcohol, Tobacco, Firearms, and Explosives. The task force was primarily
   staffed by personnel from the Bureau of Alcohol, Tobacco, Firearms, and Explosives, but


www.oig.dhs.gov                               1                                       OIG-13-49
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

   other law enforcement officers from state, local, and Federal agencies participated, as
   well.

   During Operation Fast and Furious and the Bureau of Alcohol, Tobacco, Firearms, and
   Explosives investigation that preceded it, the Bureau of Alcohol, Tobacco, Firearms, and
   Explosives requested that Homeland Security Investigations not pursue investigative
   leads to identify and stop weapons smugglers. Senior Homeland Security Investigations
   Arizona staff complied, and the leads were not investigated.

   The Homeland Security Investigations special agent assigned was involved in some of
   the investigative activities that allowed weapons to be lost and ultimately smuggled into
   Mexico even though he was aware that those activities might violate ICE policy.
   However, he believed that his role was to cooperate with the Bureau of Alcohol,
   Tobacco, Firearms, and Explosives, and to coordinate enforcement activities with U.S.
   Customs and Border Protection (CBP) and Homeland Security Investigations. His
   activities were documented in reports of investigation and approved by Homeland
   Security Investigations group supervisors. However, the Homeland Security
   Investigations Special Agent in Charge and other senior leaders did not read the reports
   and did not direct the special agent to change the methodology or his activities
   supporting the methodology.

   We have concerns that the Homeland Security Investigations Special Agent in Charge
   did not understand the flawed investigative methodology, and that Homeland Security
   Investigations Arizona did not pursue viable investigative leads, which we describe more
   fully in the report. We made three recommendations for improvement in these areas.




www.oig.dhs.gov                                2                                       OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

   Background
           Organized Crime and Drug Enforcement Task Force’s Operation Fast and
           Furious

           This report examines the DHS role in planning and executing the Organized
           Crime and Drug Enforcement Task Force (OCDETF) Operation known as Fast and
           Furious, and whether the Department’s activities complied with DHS policy and
           practices. Operation Fast and Furious has been subject to intense congressional,
           Federal, and public scrutiny due to the investigative methodology that allowed
           weapons to be illegally smuggled to criminal organizations in Mexico. The
           Operation Fast and Furious task force included staff from the Bureau of Alcohol,
           Tobacco, Firearms, and Explosives (ATF); Homeland Security Investigations (HSI);
           the Drug Enforcement Administration (DEA); the Internal Revenue Service; and
           state and local law enforcement agencies. Of these, ATF contributed the most
           resources.

           Operation Fast and Furious arose from an ATF investigation that focused on
           suspected “straw purchasers” in Phoenix, Arizona, whose newly acquired
           weapons were being smuggled to Mexico. A straw purchaser of a weapon is
           someone who buys a weapon on behalf of someone else, but not as a gift. Straw
           purchases of weapons are unlawful. When seeking to purchase weapons from a
           Federal Firearms Licensee (FFL), individuals and businesses that are licensed to
           sell firearms, a prospective buyer must complete a form 4473. That form
           requires the buyers to confirm that they are purchasing weapons on behalf of
           themselves, not someone else. Providing false information that the weapon[s] is
           for the purchaser, and not someone else, is a crime under 18 U.S.C. § 922(a)(6).

           Under the methodology used in the investigation and later OCDETF Operation
           Fast and Furious, investigators conducted surveillance of FFLs to observe sales to
           suspected straw purchasers; investigators then followed the purchasers and
           weapons to a residence or business, and ended surveillance. As a result, the
           investigators lost the ability to track or seize the weapons. Once surveillance
           stopped, the weapons could be, and were, transferred to others and transported
           elsewhere.

           The straw purchasers observed during the initial ATF investigation and later
           during OCDETF Operation Fast and Furious made multiple purchases of weapons
           favored by Mexican drug trafficking organizations. ATF believed that the
           weapons were being purchased on behalf of a smuggling ring that was
           transferring the firearms to a violent Mexican drug trafficking organization. By

www.oig.dhs.gov                                3                                        OIG-13-49
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           the end of the operation, the U.S. Attorney’s Office (USAO) indicted 20 straw
           purchasers who had acquired more than 1900 weapons.

           Approximately 567 of the weapons bought by the suspected straw purchasers
           were later recovered by law enforcement agents in Mexico and the United
           States, leaving approximately 1,430 missing. Of the 567 seized, only 105 were
           seized as a result of the operation’s initiative. The remaining 462 were seized by
           law enforcement officers who happened upon them in the course of their
           normal duties. In December 2010, two of the weapons were found at the site
           where Office of Border Patrol (OBP) Agent Brian Terry was murdered.

           The Department of Justice (DOJ) Office of Inspector General (OIG) assessed the
           role of DOJ agencies in Operation Fast and Furious, including ATF and the USAO.
           DOJ organizations maintain much of the historical information about Operation
           Fast and Furious. The DOJ OIG had authority to review DOJ documentation and
           data, as well as interview DOJ employees with knowledge about the operation.
           The results of their review were included in the September 2012 report, A
           Review of ATF’s Operation Fast and Furious and Related Matters, that provides
           an in-depth account of the facts related to DOJ involvement and lead role in the
           operation.

           Our review does not assess the propriety of ATF or DOJ activities related to
           Operation Fast and Furious. To assess whether DHS activities that supported
           Operation Fast and Furious complied with DHS policy, we obtained related email
           messages and conducted interviews with DHS staff members about their
           knowledge and understanding of Operation Fast and Furious. However, as part
           of our fieldwork, we did not solicit opinions from DOJ staff regarding their
           reaction to statements made by DHS staff since our intent was only to determine
           DHS officials’ interpretation of information, regardless of its accuracy, that led to
           decisions related to Operation Fast and Furious.

           DHS Mission to Protect the Borders by Detecting, Preventing, and Investigating
           Illegal Smuggling

           A primary mission of the Department is to protect U.S. borders and prevent
           illegal goods and merchandise from crossing them. CBP interdicts smuggled
           goods at the ports of entry and between them. HSI investigates smuggling
           violations, including weapons smuggling.




www.oig.dhs.gov                                  4                                         OIG-13-49
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           CBP Mission and Organization

           CBP has three components responsible for stopping contraband from crossing
           U.S. borders. The CBP Office of Field Operations (OFO) is responsible for
           securing the ports of entry, and the OBP secures the borders between the ports
           of entry. The CBP Office of Air and Marine supports border aerial and marine
           border security.

           An integral aspect of securing the ports of entry is to enforce the immigration
           and customs laws. OFO officers inspect the people, vehicles, and merchandise
           destined to enter or exit the United States though the ports of entry. OFO has a
           Memorandum of Understanding (MOU) with ICE that delineates roles and
           responsibilities for both agencies. When OFO officers encounter contraband,
           they notify HSI special agents to investigate the circumstances. When any
           Federal law enforcement agency seeks enforcement action at the ports of entry,
           it must request the support through ICE. OFO monitors ten ports of entry in
           Arizona. Port Directors are responsible for the operations at each port.

           OBP patrols the international borders between the ports of entry to detect and
           prevent goods and people from crossing the border illegally. OBP also assists
           OFO at ports of entry when additional personnel are required. OBP has an MOU
           with ICE that governs their interaction. ICE must notify OBP to coordinate any
           investigative activities between the ports of entry. OBP splits Arizona into two
           sectors, Yuma and Tucson, which together are responsible for the operations of
           ten OBP stations in Arizona. OBP Sector Chiefs are responsible for the activities
           of their agents.

           HSI Mission and Organization

           HSI is the ICE directorate responsible for investigations, international affairs, and
           intelligence gathering related to the ICE mission. ICE maintains a headquarters
           staff that provides support to the 26 HSI field offices throughout the United
           States. A Special Agent in Charge (SAC) leads each HSI field office.

           An HSI SAC is responsible for the HSI staff working in the Phoenix offices, as well
           as staff in eight other offices in Arizona. Those offices have leaders that report
           to the SAC. A Deputy Special Agent in Charge (DSAC) leads the HSI Tucson office;
           Assistant Special Agents in Charge (ASAC) lead the Douglas, Nogales, Sells, and
           Yuma offices; and Resident Special Agents in Charge (RAC) lead the field offices
           in Flagstaff and Casa Grande, Arizona. HSI criminal investigators are called
           special agents. Lower-ranking special agents report to supervisory special

www.oig.dhs.gov                                  5                                         OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           agents, who are called group supervisors. Group supervisors in turn report to
           ASACs or RACs. We refer to the SAC throughout the Report as the HSI SAC and
           to his staff as HSI Arizona staff.

                                Figure 1: HSI Phoenix SAC Field Offices
                  SAC               DSAC               ASAC             RAC/GS

             Phoenix (1)         Phoenix (1)           Phoenix          Phoenix (14)

                   -             Tucson (1)          Tucson (3)          Tucson (8)

                   -                  -              Douglas (1)         Douglas (5)

                   -                  -              Nogales (1)         Nogales (5)

                   -                  -                Sells (1)           Sells (4)

                   -                  -               Yuma (1)            Yuma (4)

                   -                  -                    -             Flagstaff (1)

                   -                  -                    -                Ajo (1)

                   -                  -                    -           Casa Grande (1)

           Source: ICE

           SACs are accountable for the actions of their offices. They have responsibility for
           overall internal resource allocation within their offices and management of their
           offices’ relationships with other agencies and departments. A SAC informs the
           Director and Assistant Director of Operations to serious issues the SAC believes
           require headquarters attention. The DSACs are responsible for daily oversight of
           their office’s investigations. To transmit operational issues to headquarters,
           DSACs and ASACs report to the desk officer who works within the Operations
           Directorate. ICE headquarters officials expect SACs to resolve issues that arise
           within their field offices, but will provide assistance when necessary.

           HSI Legal Authorities for Weapons Smuggling Cases

           HSI has enforcement authority for a broad range of statutes including those that
           define and criminalize the illegal exportation of weapons. Section 38 of the Arms
           Export Control Act, as amended (AECA) and the International Trafficking in Arms
           Regulations (ITAR) govern the importation and exportation of defense-related
           articles and services, including the types of weapons purchased by the suspects

www.oig.dhs.gov                                 6                                        OIG-13-49
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

           in Operation Fast and Furious. 1 AECA and ITAR require that exporters obtain a
           license to transport the weapons across the U.S. borders. Some of the weapons
           that were the subject of Operation Fast and Furious were transported to Mexico
           without appropriate licenses in violation of AECA’s provisions. The ITAR explicitly
           grants ICE and CBP the authority to inspect, investigate, detain, and seize
           weapons that violate AECA, including the weapons that were the focus of
           Operation Fast and Furious.

           In 2006, Congress passed the USA PATRIOT Improvement and Reauthorization
           Act of 2005, which established a new customs statute, 18 U.S.C. § 554,
           Smuggling Goods from the United States. ICE staff members said that ICE has
           exclusive jurisdiction to investigate this customs violation. The statute makes it a
           crime to fraudulently or knowingly export or facilitate the exportation of goods
           in a manner that violates U.S. statutes and regulations. The statute carries a
           maximum sentence of ten years incarceration.2 18 U.S.C. § 922(g) prohibits
           certain individuals, including illegal aliens, from transporting or shipping
           firearms and ammunition in interstate and foreign commerce, or receiving any
           such items which have been so shipped or transported.

           HSI special agents, CBP OFO officers, and OBP agents possess more authorities
           than ATF and local police to protect the U.S. borders. Under the “border search”
           exception to the Fourth Amendment, customs and border officials may conduct
           routine searches of individuals and vehicles at or near the border for
           merchandise or evidence related to the importation or exportation of
           merchandise, including firearms, without probable cause or reasonable
           suspicion. In addition to the border search exception, Federal statutes grant HSI
           special agents, CBP OFO officers, and OBP agents the authority to search
           individuals without probable cause at the border.3

           OCDETF Operations

           The OCDETF program was established in 1982 to identify, disrupt, and dismantle
           major drug trafficking and money laundering organizations. Federal, state, and
           local law enforcement agencies, including ICE and ATF, work together on OCDETF
           operations, and the USAO provides oversight. OCDETF committees across the
           country can certify investigations for OCDETF funding. To obtain certification, an
           agency must propose to the committee an investigation or operation that has
           one or more drug trafficking organizations as its target. Weapons smuggling

   1
     22 U.S.C. § 2778; 22 CFR §§ 120-130. 

   2
     18 U.S.C. § 554 Smuggling of Goods from the United States.

   3
     19 U.S.C. §§ 482, 1467, 1496, 1581, 1582.


www.oig.dhs.gov                                        7                                 OIG-13-49
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

           investigations may also receive OCDETF certification if the proposal links the
           weapons smuggling ring to one or more significant drug trafficking organizations.
           To be certified as an OCDETF operation and receive OCDETF funding, an
           investigation must be pursued as a task force that includes several agencies.

           Title III Electronic Surveillance Wiretaps

           The OCDETF Operation Fast and Furious used Title III electronic wiretaps, which
           allow Federal, state, and other investigative and law enforcement agencies to
           intercept wire, oral, or electronic communications to further a criminal
           investigation. An investigating or law enforcement official seeking a Title III
           wiretap must receive judicial authorization. Such officials submit an application,
           including an affidavit, to DOJ’s Office of Enforcement Operations, which reviews
           all wiretap applications to ensure that each application meets statutory
           requirements and DOJ guidelines. If the application meets the requirements,
           and the Attorney General or his designee authorizes it, an Assistant United
           States Attorney (AUSA) will forward it to a Federal judge for approval. 4

   Results of Inspection
           The results of our review are presented in two parts. Part One provides an
           overview of the extent to which senior ICE and DHS officials became
           knowledgeable of the planning and implementation of Operation Fast and
           Furious. Part Two includes specific details of related events that occurred
           between DHS staff in field locations and ATF staff members, and the extent to
           which the Department complied with DHS policies and procedures for weapons
           smuggling investigations.

           Part One: ICE Headquarters Did Not Learn about Operation Fast and Furious
           Methodology Until December 2010, and Senior DHS Officials Did Not Learn of It
           Until March 2011

           ICE headquarters officials received their first indication of the OCDETF operation
           and its flawed methodology after OBP Agent Terry was murdered and two
           weapons recovered at the scene had been purchased by Operation Fast and
           Furious suspected straw purchasers during the course of the investigation. The
           HSI SAC informed ICE headquarters officials that the weapons recovered at the
   4
     The Omnibus Crime Control and Safe Streets Act of 1968, as amended, Pub. L. 90-351, Title III, governs
   the procedures and requirements for obtaining wiretap orders in the United States. The law was codified
   in 18 U.S.C. §§ 2510-2522. 18 U.S.C. § 2516(1) states that the Attorney General or his designee, such as
   the Deputy Attorney General, may authorize the submission of wiretap application.

www.oig.dhs.gov                                        8                                              OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

           crime scene were linked to the OCDETF operation, and he characterized HSI
           Arizona involvement as “tangential.” An ICE headquarters official appropriately
           advised the HSI SAC to provide all of the information he had to the Federal
           Bureau of Investigation (FBI), which was investigating the murder.

           In March 2011, after several media reports criticized Operation Fast and Furious,
           the DHS Secretary began to seek information about it and any involvement by
           DHS components. She worked with ICE headquarters to learn the facts of
           Operation Fast and Furious and details about ICE policy and practices related to
           weapons smuggling investigations along the Southwest Border.

           The DHS Secretary did not learn about Operation Fast and Furious, its flawed
           methodology, or that ICE had assigned an HSI special agent to the task force until
           mid-March 2011. The ICE Director did not learn of the operation until January
           2011 when ATF scheduled a press conference, and he did not learn of the flawed
           methodology until March 2011. Likewise, the HSI headquarters officials did not
           know about the operation’s methodology until that time, though they were
           aware that HSI Arizona had a special agent assisting the task force in December
           2010.

           By the time the DHS Secretary received information about ICE participation in
           the task force, the DOJ OIG had already begun its review of Operation Fast and
           Furious. Neither ICE headquarters officials nor the Secretary spoke with anyone
           from DOJ OIG about the operation. The Secretary’s and ICE officials’ actions
           were appropriate.

           Murder of OBP Agent Terry Provided ICE Headquarters Officials With the First
           Information About the Operation’s Flawed Methodology

           On the morning of December 15, 2010, HSI Arizona learned that OBP Agent Terry
           had been murdered by suspects that he and others with him were attempting to
           apprehend. That afternoon, the HSI special agent assigned to the Operation Fast
           and Furious task force informed his group supervisor that “the firearm used to
           kill [Border Patrol Agent] Terry” had been purchased by one of the operation’s
           suspected straw purchasers in January 2010. At 5:29 p.m. that evening, the
           group supervisor sent an email message to his ASAC and DSAC explaining what
           he had learned from the HSI special agent about the firearm. The DSAC
           forwarded the email message to the HSI SAC and stated, “[t]his is why you don’t
           let that many guns walk.”




www.oig.dhs.gov                                9                                        OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

           In another string of messages that night between the group supervisor and his
           ASAC, two DSACs, and the HSI SAC, the group supervisor wrote that three
           weapons had been recovered at the scene of the murder. Two were traced to a
           straw purchaser who was a suspect in the operation, but the results on the third
           weapon were unknown. Later, ICE management was informed correctly that
           only two weapons were found at the scene and forensic tests could not
           determine if either was the murder weapon. The group supervisor also wrote
           that the AUSA had been made aware of the situation. In another email message,
           he wrote “[a]nd this is exactly what I said would happened [sic] when you let
           that many guns walk.” His ASAC also wrote in an email message, “[t]hat is why
           we shouldn’t let guns walk!”

           At 7:05 p.m., the HSI SAC informed his supervisor, the Assistant Director of
           Operations, in ICE headquarters that weapons at the murder were linked to
           OCDETF Operation Fast and Furious. In the email, he characterized HSI
           involvement with the operation as “tangential”:

                  ICE has been tangentially involved in the case since many

                  weapons that have been seized in HSI cases have been 

                  traced to sales at [a Phoenix, Arizona, FFL] and straw 

                  purchasers that ATF has already investigated. Our efforts 

                  to work these targets have been thwarted because of the 

                  ATF OCDETF case. 


           The Assistant Director of Operations informed her supervisor, the Executive
           Associate Director of Operations. The Executive Associate Director of Operations
           instructed the HSI SAC to provide all the information he had to the FBI, which
           would be responsible for the investigation.

           The Secretary visited OBP Arizona offices on December 17, 2010 to support the
           OBP staff and to assert to the USAO and to the FBI that DHS wanted an
           aggressive investigation and prosecution. The Secretary did not visit with ICE
           personnel in Arizona. U.S. Attorney Dennis Burke traveled with her from
           Phoenix to the offices she visited and attended the meetings with OBP
           personnel. However, Burke and others did not inform her about the connection
           between the weapons recovered at the scene of the murder and the OCDETF
           operation. They did not mention Operation Fast and Furious.

           The HSI special agent on the operation acted appropriately when he informed his
           chain of command about the connection between the firearms found at the site
           of OBP Agent Terry’s murder and the operation.

www.oig.dhs.gov                               10                                          OIG-13-49
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           We question the HSI SAC’s use of the word “tangential” to describe HSI’s
           involvement in the operation. Just a few weeks earlier, as we describe later in
           our report, the group supervisor of the HSI special agent on the operation had
           described the special agent’s role in the indictment phase of the operation as
           “fully involved.” Additionally, the HSI special agent had worked full time on the
           operation since its inception. He had conducted surveillance, interviews, and
           monitored wiretaps with the rest of the operation’s staff. The proposal that
           established the operation named him and an ATF agent as co-leads. The HSI SAC
           should have provided ICE headquarters officials with a more thorough and clear
           account of the role his office had in the operation.

           The ICE headquarters officials acted appropriately, especially when the HSI
           Executive Associate Director of Operations directed the HSI SAC to provide all
           information available to the FBI special agents who were investigating the
           murder.

           HSI Arizona Special Agents Assisted with the Arrest of 20 Operation Fast and
           Furious Suspects; Subsequently the HSI Special Agent on the Operation Stopped
           Work on Operation

           The grand jury indicted 20 Operation Fast and Furious suspects on January 19,
           2011. The indictment did not include any substantive charges of the AECA or 18
           U.S.C. § 554 smuggling statutes for the actual transportation of weapons across
           the border to Mexico. However, the indictment included one charge of
           conspiracy to smuggle weapons. The HSI special agent on the task force assisted
           with the first string of arrests on January 25, 2011, as did other HSI special agents
           and CBP personnel who previously had no knowledge of the case.

           The HSI special agent assigned to the operation documented the arrests on
           January 31, 2011. He resumed his work with HSI Arizona and left the OCDETF.

           DHS Headquarters and ICE Headquarters Assess DHS Involvement After Press
           Articles Criticize Operation Fast and Furious

           The DHS Secretary, the ICE Director, and other senior ICE headquarters
           officials said that they learned about the flawed methodology in
           Operation Fast and Furious when news articles about the operation
           began to appear. We found no evidence that the DHS Secretary, ICE
           Director, or other senior officials were aware of the Operation Fast and
           Furious methodology prior to publication of the news articles. The DHS

www.oig.dhs.gov                                 11                                        OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           Secretary began to seek information from ICE in early March 2011. The
           ICE Director’s office assisted with asking questions and determining the
           ICE role in Operation Fast and Furious. They worked together to
           understand the facts of the case.

           After making initial inquiries, the ICE Director instructed staff members to
           review ICE emails in response to congressional requests for information.
           A team of ICE staff interviewed HSI Arizona staff who had knowledge of
           Operation Fast and Furious. The team concluded that HSI Arizona had
           not knowingly allowed weapons to cross the border into Mexico during
           Operation Fast and Furious, and that HSI policy and practice was never to
           allow known and uncontrolled loads of weapons to be transported across
           the southern border. The team concluded that HSI Arizona staff had
           been misled by ATF with regard to the operation’s methodology. Our
           findings differ in that we believe HSI Arizona senior staff had the
           information available to conclude that ATF had opportunities to seize
           weapons that were destined for Mexico. Despite that, the DHS Secretary
           and ICE Director acted appropriately to the initial indications that ICE may
           have been involved in the flawed operation.

           The DHS Secretary Initially Did Not Receive Complete Information About ICE
           Involvement in the Operation

           After articles about Operation Fast and Furious began to appear in the press, the
           DHS Secretary began to inquire about ATF’s methodology and its relation to the
           straw purchasers who bought the weapons recovered at OBP Agent Terry’s
           murder site. Beginning on March 5, 2011, she asked ICE to answer questions
           about Operation Fast and Furious. HSI Arizona and ICE headquarters both drafted
           answers. The answers did not inform the Secretary that ICE had placed an HSI
           special agent on Operation Fast and Furious. The Secretary’s office was not
           satisfied with the initial answers and required more information. This exchange
           continued for several weeks.

           During her morning briefing on March 5, 2011, the Secretary asked that the
           Southwest Border HSI SACs answer some questions to prepare her for a meeting
           with the U.S. Attorney General, which was scheduled for March 8, 2011. The
           questions were sent to ICE headquarters staff, which forwarded them to the HSI
           Phoenix SAC and other SAC offices. The email message stated, “[i]n preparation
           for a meeting with the AG, S1 is asking HSI to reach out to the SWB [Southwest
           Border] SACs to see if we can weigh in on the matter involving ATF guns
           smuggling investigations.” S1 is a term commonly used in DHS to refer to the

www.oig.dhs.gov                                12                                         OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

           Department’s Secretary. “AG” is a reference to the U.S. Attorney General. The
           Secretary and two key staff members said that the meeting between the U.S.
           Attorney General and the Secretary was cancelled. Her schedule confirms that
           she did not attend; instead, lower level staff attended the meeting. They did not
           discuss Operation Fast and Furious. Instead, they discussed protocols for
           communications between DHS and DOJ. DOJ had concerns that the Secretary and
           her staff were contacting DOJ staff for information inappropriately.

           The Secretary’s March 5, 2011 questions included the following:
              •	 Had ATF allowed any weapons to be taken into Mexico as part of ongoing
                  or previous investigations, and if so were they controlled deliveries
                  coordinated with CBP?
              •	 Had ATF been conducting investigations into the purchasers of the
                  weapons linked to the murders of OBP Agent Terry and ICE Special Agent
                  Zapata prior to the murders? [ICE Special Agent Zapata was murdered in
                  Mexico in February 2011.] If so, did ATF ever knowingly allow the suspects
                  to transport weapons into Mexico?
              •	 What were ATF’s standard practices when it suspected an investigation’s
                  subjects were smuggling weapons out of the country? How did ATF
                  prevent the weapons from being illegally exported?


           The HSI Arizona SAC received these questions and responded to the HSI Arizona
           desk officer at headquarters late in the evening of March 7, 2011. Before they
           returned their response, the ICE Deputy Chief of Staff, Operations, prepared
           answers, which he transmitted to the ICE Deputy Director, who forwarded the
           response to the ICE Chief of Staff. We did not locate an email that transmitted
           the responses to the Secretary’s office. The answer to the first question
           discussed the requirements for Federal agencies to allow weapons to cross the
           border and stated that according to the ICE/ATF MOU, ATF would need to notify
           ICE before the weapons were moved across the border. The answer then stated
           that an informal polling of HSI Southwest Border offices:

                  … revealed no instances when ATF knowingly abrogated this MOU and/or
                  violated current federal law by willingly allowing USML weapons to
                  transit the international border, specifically, in the instance of the cases
                  related to the homicide of DHS personnel, into Mexico.

           The response to the second question stated that ICE was working with ATF to
           obtain more information related to the purchases of the weapons linked to the
           murders of ICE Special Agent Zapata and OBP Agent Terry.


www.oig.dhs.gov                                13	                                       OIG-13-49
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           ICE headquarters’ response to the third question was that ATF was compelled to
           advise ICE and CBP when it conducted investigations targeting international arms
           smuggling organizations. It continues, “[h]owever, this protocol does not
           preclude the unintentional release of weapons given to targets domestically who
           then, unbeknownst to ATF, carry them travel [sic] out of the U.S.”

           On March 8, 2011, the HSI SAC provided the ICE headquarters desk officer with
           answers to the questions. His email message stated the following:
              •	 ATF knew or should have known that weapons that they had identified
                 were being smuggled into Mexico;
              •	 CBP probably was not notified of any loads of weapons passing through
                 the ports of entry as “uncontrolled deliveries;”
              •	 HSI had been aware that ATF allowed cold convoys of weapons to be
                 transported to Mexico in 2007, and on at least two occasions the
                 deliveries were compromised;
              •	 HSI learned that the ATF investigation’s subjects were responsible for
                 smuggling hundreds of weapons to Mexico, and ATF was adamant that
                 any enforcement action would jeopardize their attempt to get a Title III
                 wiretap;
              •	 ATF received contemporaneous intelligence of weapons sales during
                 Operation Fast and Furious, and had identified the locations where
                 weapons were stored pending transit to Mexico;
              •	 ATF put into eTrace information from all weapons sold in four FFLs, which
                 blocked HSI from conducting investigations of any weapons sold by those
                 stores; 5
              •	 The purchaser of the weapon linked to the murder of OBP Agent Terry
                 was the subject of Operation Fast and Furious; and
              •	 HSI Arizona cannot comment on ATF standard practices, but it appears
                 that ATF does not give priority to preventing weapons from being
                 exported illegally to Mexico.




   5
     In comments to our report, DOJ said that ATF put information from all weapons purchased by Operation
   Fast and Furious suspects into the Suspect Gun Database. The ATF case agent did not authorize release of
   information on the guns in that database. As a result, when HSI special agents requested information on
   weapons purchased by Operation Fast and Furious suspects, they did not receive information in response.
   The HSI investigations were impeded as a result. As a general matter, entry of information about weapons
   into the eTrace system does not automatically trigger a mechanism to prevent the dissemination of the
   information.

www.oig.dhs.gov                                      14	                                             OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           The answers did not mention that HSI Arizona assigned an HSI special agent to
           participate on the OCDETF.

           The Secretary had additional questions transmitted through ICE Director Morton
           on March 8, 2011, as follows:
              1.	 What licenses are required by law enforcement to ship export firearms
                  from the United States to Mexico, and does ICE have a role in that
                  process?
              2.	 What language in the ICE/ATF MOU requires ATF to notify ICE of efforts
                  “to export or let guns walk across the border;” and had ICE ever received
                  such a notification?
              3.	 Did ICE have any prior contact with ATF over the guns identified at the
                  scene of OBP Agent Terry’s death or ICE Special Agent Zapata’s death?
              4.	 Does ICE policy allow firearms “to walk” domestically or internationally?

           In response to the Secretary’s questions, the ICE Chief of Staff provided draft
           answers to one of the Secretary’s advisors shortly after receiving the questions.
           The answers to questions 1, 2, and 4, were full paragraphs. The answers
           provided a full explanation of the weapons laws, the ICE/ATF MOU, and ICE’s
           position that no firearms may be transported across the international border.
           However, the response to question 3, regarding any prior contact with ATF over
           guns identified at the scene of OBP Agent Terry and ICE Special Agent Zapata’s
           death, was, “No.”

           The advisor told us that he informed ICE headquarters officials that they needed
           to provide more facts to explain what they thought happened in the ATF
           investigation, and “why we are convinced that we did not knowingly allow these
           guns into Mexico.” Specifically, the Secretary’s advisor sent the following email
           message to the ICE Director and the Chief of Staff on March 10, 2011:

                  S1 is exceptionally concerned about the ATF issues. She wants to
                  make sure that, at any level, we had no knowledge of the specific
                  purchase that may be related to Terry. She may also want a
                  general briefing on how our agents interact with ATF in these type
                  cases in the past. Do you guys mind taking a deep dive on this and
                  making sure we had no advance knowledge on this one?

           The ICE Chief of Staff responded that ICE was gathering more information and
           she would call the advisor when she had more complete answers. We were not
           able to interview the ICE Chief of Staff, who left DHS employment during the



www.oig.dhs.gov                                15	                                      OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           course of our review. We did not locate an email message with responses to this
           question.

           On March 12, 2011, DHS headquarters requested additional information from
           HSI field offices to include summaries of how HSI received information and what
           actions it took on the cases. DHS headquarters also wanted to know about any
           leads that ATF provided to HSI and what actions HSI took on those leads. In
           addition, the HSI field offices needed to explain how they coordinated the cases
           with CBP. HSI Arizona senior leaders surmised that DHS headquarters wanted to
           review how HSI typically handled firearms cases. HSI Arizona compiled a
           detailed list of more than 50 cases. It also included summaries of email
           messages from 2008 and early 2009 that documented problems the HSI Arizona
           field offices had with ATF, including instances in which ATF’s operational tactics
           allowed weapons to cross into Mexico without appropriate licenses,
           notifications, or coordination with the Government of Mexico. In those
           messages, ICE articulated that it would not allow weapons to be transported into
           Mexico without following the statutorily required processes and ensuring the
           weapons could be safeguarded.

           To learn more about HSI involvement in Operation Fast and Furious, HSI
           headquarters officials read the reports of investigation (ROI) that the HSI
           special agent had drafted to document his work on Operation Fast and
           Furious. ICE headquarters sent the following questions about the reports
           to HSI Arizona on March 13, 2011:
               •	 Provide details about the seizure of weapons that were actively being
                   transported to the international border of Mexico?
               •	 What investigative techniques were used on the suspect who had
                   purchased the weapons found at the scene of OBP Agent Terry’s murder?
               •	 Was ICE aware that individuals within ATF disputed the Operation Fast
                   and Furious methodology while the operation was underway?
               •	 Was HSI involved in the surveillances that terminated when a vehicle with
                   weapons parked at a residence? What happened to the surveillance?

           The HSI ASAC that supervised the HSI special agent on the operation and his
           group supervisor provided a draft response to his chain of command:

                  We were aware that there was a dispute within ATF over the
                  operational philosophy of the operation; we had the same
                  concerns in the January 2010 meeting when we stated we would
                  not let guns walk south. The issue seems to have been that ATF
                  and the USAO did not want to do anything to jeopardize the wire

www.oig.dhs.gov                                16	                                       OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

                  they were writing and both ATF and the USAO insisted that we not
                  interfere… yes, we were aware but were not directly involved.

           The HSI ASAC provided ICE headquarters with answers to some of the
           questions a few hours later on March 13, 2011. In the email message the
           ASAC said that HSI Arizona “had no knowledge period of ATF walking
           guns, they were clear on our (HSI) and the SAC’s stance on this.” He
           provided the details related to seven domestic seizures the task force
           made that the HSI special agent on the operation had recorded in ROIs.
           His email message also stated:
               •	 The sole HSI special agent assigned to Operation Fast and Furious
                   did not believe that the task force surveilled the suspect who
                   purchased the weapons found at the scene of OBP Agent Terry’s
                   murder;
               •	 The sole HSI special agent did not participate in many of the
                   surveillances; he documented in TECS some, but not all of the
                   surveillance work he conducted.
               •	 Generally, once weapons went to a residence, surveillance 

                   terminated. 



           ICE Assembled a Team to Assess HSI Involvement in Operation Fast and
           Furious

           In June 2011, ICE headquarters assigned a team to collect more
           information about Operation Fast and Furious in response to
           congressional requests for information. The team said that it reviewed
           6,000 email messages. In January 2012, three ICE headquarters staff
           traveled to Arizona to interview HSI Arizona personnel who were
           knowledgeable about Operation Fast and Furious.

           The team did not document its findings in reports or briefing papers.
           However, team members said that they concluded that ATF had misled
           ICE to believe that the investigation would be conducted competently.
           HSI assigned the HSI special agent to the task force in an attempt to
           cooperate with ATF and the USAO.

           The ICE headquarters team did not review as many messages as we did.
           It did not have the important messages that assisted us in our interviews
           with HSI Arizona staff. As a result, the team’s findings differ from ours.



www.oig.dhs.gov                                17	                                      OIG-13-49
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security

           However, it appears that the team made a good faith effort to collect the
           important facts.

           Conclusion

           Each DHS, ICE, and HSI headquarters official that we interviewed stated
           they did not learn about the operation’s flawed methodology until the
           media reports started to raise concerns. The email messages we
           reviewed indicate the same. In March 2011, as the media reporting
           intensified, the DHS Secretary and ICE headquarters officials sent multiple
           requests for information that indicate they did not know HSI had a special
           agent participating on the operation and that the operation’s
           methodology was flawed. They acted appropriately in response to the
           information being published.

           Likewise, ICE headquarters acted appropriately when it established a
           team to review thoroughly the circumstances of HSI participation in the
           task force. Our findings differ, but it appears the team made a significant
           effort to discover the facts.


           Part Two: HSI Arizona Staff Learned of ATF Weapons Smuggling Investigation
           That Became Operation Fast and Furious, but the HSI SAC Did Not Understand
           ATF’s Methodology

           The ATF Phoenix field office began an investigation of several suspected straw
           purchasers on October 31, 2009. HSI special agents in Arizona learned about
           ATF’s investigation in November and December 2009 while conducting two
           investigations to determine the sources of weapons being smuggled into Mexico.
           ATF agents informed the HSI office that the weapons HSI was investigating were
           related to an ongoing ATF investigation of weapons purchased by suspected
           straw purchasers. ATF and, according to interviews with some HSI Arizona staff,
           the AUSA requested that HSI terminate their ongoing weapons smuggling
           investigations, and refrain from further efforts to identify the smuggling ring’s
           transportation cell.6 The HSI SAC agreed to the request largely because of the
           AUSA’s support of ATF’s case.

           As some HSI Arizona field office staff members learned more about the ATF
           investigation, they conveyed to other HSI Arizona staff their concerns about the
   6
     In its comments to our report, DOJ stated that USAO maintains that it did not request that ICE refrain
   from its investigations.

www.oig.dhs.gov                                        18                                                OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           investigation’s methodology, in which ATF investigators would discontinue
           surveillance without seizing the weapons. HSI policies and procedures for
           contraband smuggling investigations prohibit losing contraband, especially when
           the contraband is firearms. HSI Arizona senior leaders and special agents tried to
           influence ATF’s plan to further the investigation and stop weapons from being
           transported to Mexico. However, ATF did not revise its strategy, and it
           continued with its original plan for investigating the weapons smuggling
           operation.

           HSI Arizona supervisory staff assigned a special agent to assist ATF in November
           2009; however, the HSI special agent had minimal participation in the ATF
           investigation, and did not document any investigative activity until he became
           more actively involved in the investigation in mid-January 2010.

           The HSI SAC said he did not understand the full extent of ATF’s methodology
           until December 2010, a year after ATF began its investigation. The HSI SAC said
           that until then he did not know that ATF had the opportunity to stop weapons
           from being smuggled to Mexico.

           HSI Policies and Practices Require Contraband to be Continuously Monitored
           Until Seized

           HSI policy allows special agents to delay the immediate seizure of evidence in
           order to learn more about a criminal organization. The procedures for delaying
           seizure are stated in the U.S. Customs Special Agent Handbook, USCS-HB-98-01,
           Ch. 15, April 3, 1997. The handbook indicates that a special agent must follow
           extensive procedures anytime a special agent wants to delay immediate seizure
           of newly discovered contraband. The handbook identifies a delayed seizure as a
           controlled delivery. The handbook lists rules for conducting controlled
           deliveries. The handbook does not specifically state that special agents must
           continue surveillance of contraband until they seize it, although every HSI special
           agent that we asked understood that to be the policy. However, the handbook’s
           extensive requirements for the conduct of controlled deliveries and the absence
           of any terms that would allow special agents to stop surveillance preclude
           stopping surveillance without seizing the contraband.

           The handbook requires significant planning for controlled deliveries, including
           notification and approval from ICE headquarters as well as coordination with law
           enforcement agencies in areas through which the controlled delivery would
           pass. The handbook also notes that planning controlled deliveries requires
           “strict attention to resource allocation” because controlled deliveries “can

www.oig.dhs.gov                                19                                        OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           require the dedication of substantial personnel and equipment” and
           “surveillance activities can be lengthy and geographically broad.” Special agents
           are directed to use aerial surveillance if it is needed. The handbook requires that
           a senior special agent “will direct the surveillance and ensure frequent
           communication with the originating, transited, and receiving offices.” It also
           states that the SAC at the destination point “is responsible for providing
           resources and ensuring the security of the contraband to its destination.” When
           a controlled delivery has reached its destination, the case agent should report
           the additional searches, arrests, and seizures that occurred.

           The handbook allows for special types of controlled deliveries. It addresses cold
           convoys, which can be used when law enforcement agents discover contraband
           without being noticed by the suspect associated with the contraband. HSI
           special agents may delay seizure and allow the suspect to proceed to a
           destination within the United States “while under surveillance by special
           agents.” Additionally, special agents may allow contraband to be imported or
           exported under very tightly controlled circumstances.

           Significantly, the handbook contains exacting notification procedures if
           contraband is lost, including immediate notification to the nearest Office of
           Internal Affairs and the Director of Investigative Operations (known as the
           Executive Associate Director or Operations), or the duty agent if the loss occurs
           after normal business hours. Within 24 hours, the SAC must send a
           memorandum to the Director of Investigative Operations that explains the
           circumstances of the loss and provides 17 other data points.

           At the time of Operation Fast and Furious, HSI did not provide specific training
           for conducting investigations of smuggling rings that illegally transport weapons
           to Mexico. However, every HSI staff member we interviewed told us that HSI
           teaches its special agents not to conduct activities that would allow contraband
           to be lost from government control. That is true for all contraband, and
           especially for weapons.

           HSI Arizona staff explained, and their email messages confirmed, that when
           enforcing the weapons smuggling statutes, they are extremely serious about
           adhering to the mandate not to lose weapons. They explained that they have
           been using the same case methodology for almost all investigations of weapons
           smuggling to Mexico for years. HSI Arizona special agents will surveil weapons
           suspected of being contraband until the special agents can either confirm that
           the weapons are not contraband, or seize the weapons.



www.oig.dhs.gov                                20                                        OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           Discontinuing surveillance of suspected straw purchasers and losing high caliber
           weapons is abhorrent to every HSI special agent we spoke with about the issue.
           They will not drop surveillance of suspect weapons. When HSI has evidence to
           charge a person suspected of involvement in weapons smuggling, HSI will charge
           them and “flip” them, a law enforcement practice in which special agents
           persuade a suspect to assist the investigation. If HSI special agents have strong
           suspicions about a person suspected of weapons smuggling, but do not have
           evidence to charge them, HSI will talk with them to get more information.

           ICE/ATF MOU Outlines Roles to Resolve Conflicts Between the Agencies

           ICE and ATF maintain jurisdiction to investigate multiple weapons violations,
           which creates a potential for an investigation of the same subject to be initiated
           by both agencies. In these circumstances, either the agencies will agree to work
           together, or one agency must terminate its investigation.

           To minimize the challenges that can arise in resolving these instances, in June
           2009, HSI signed an MOU with ATF that established protocols for deconflicting
           and cooperating on weapons investigations. The MOU states that: (1) the
           agencies should exchange information and assist each other; (2) issues between
           HSI and ATF should be resolved at the lowest levels; and (3) SACs should be able
           to manage issues at the field level. The MOU also provides a mechanism for
           raising conflicts with ATF to ICE headquarters when resolution cannot be
           reached at the field office level.

           ICE headquarters officials said that they specifically negotiated the notification
           terms so that ICE could ensure that violations of AECA and 18 U.S.C. § 554 would
           be investigated when appropriate, and ICE could prevent weapons from being
           smuggled into Mexico. ICE and ATF Directors hosted a conference in November
           2009 to encourage adherence to the MOU and improve cooperative efforts.

           ATF Directed HSI to Abandon a Weapons Smuggling Investigation

           On November 21, 2009, the HSI Tucson DSAC office opened a weapons
           smuggling investigation after it received information about the seizure of 41
           weapons in Naco, a Mexican town that borders Arizona. The Mexican Customs
           authority, Aduana, had seized an AR-15 and 40 AK-47 style firearms from a
           vehicle on the Mexican side of the Naco port of entry. The Mexican Government
           requested that the HSI Assistant Attaché staff assigned to the American
           Consulate General in Hermosillo, Mexico enter eTrace queries on the weapons.



www.oig.dhs.gov                                21                                        OIG-13-49
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

           ATF maintains eTrace, which is an electronic system that accredited law
           enforcement agencies may use to request firearms information from ATF’s
           National Tracing Center. An eTrace request prompts the center to compile
           information about a weapon’s manufacturer, place of first sale, and initial
           purchaser. The information can be useful for investigations that involve a
           weapon. The MOU between ICE and ATF allows ICE to submit queries through
           the eTrace system to obtain information on specific weapons related to ICE
           investigations.

           HSI never received the results of the eTrace queries on the weapons seized in
           Naco because, as it learned later, ATF had blocked the information. HSI special
           agents learned that ATF entered the weapons linked to the ATF investigation in a
           “Suspect Gun Database,” which alerted the ATF case agent to eTrace queries
           made on the investigation’s suspect weapons. The ATF case agent blocked
           eTrace responses.

           On November 23, 2009, the HSI Hermosillo staff notified the HSI SAC of the
           seizure, and HSI’s initial investigative activities, which identified leads to Tucson,
           Arizona. In response, the HSI SAC contacted ATF senior leaders in the ATF
           Tucson field office. HSI and ATF Tucson field office staff agreed to share
           information related to the seizure. HSI special agents in the Tucson field office
           began to investigate the leads.

           On November 25, 2009, an ATF Phoenix senior leader wanted HSI to abandon its
           investigation of the 41 Naco weapons because ATF already was investigating the
           purchaser, who it believed was a straw purchaser. The ATF Phoenix office gave
           the message to an ATF Tucson staff member, who told an HSI Tucson special
           agent. The HSI Tucson special agent forwarded the ATF Tucson staff member’s
           comments about the ATF Phoenix investigation in an email message to the HSI
           SAC, and other HSI Arizona senior leaders. The Tucson ATF agent said that he did
           not know how the Phoenix ATF office had identified the suspected straw
           purchasers and that ATF Phoenix agents were being “vague.” However, the ATF
           ASAC for the case suggested that ATF brief HSI Arizona staff on the case and
           coordinate activities.

           Two HSI Arizona staff members said that the AUSA also directed HSI Arizona staff
           to stop the investigation of weapons seized in Naco. They did not provide the
           date or the circumstances in which they learned of the instruction from the
           AUSA.




www.oig.dhs.gov                                  22                                         OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           The HSI SAC learned more about the case from a telephone call he received on
           November 25, 2009, from the ATF Phoenix ASAC. The ATF Phoenix ASAC said
           that the seized weapons were linked to a case that was approximately two
           weeks old. ATF thought that several straw purchasers were responsible for
           several hundred weapons going to Mexico. ATF wanted to schedule a meeting
           with HSI to talk about the seizure and determine roles for the investigative
           agencies. The HSI SAC summarized the conversation in an email message that he
           sent to senior HSI staff in Arizona and the HSI Assistant Attaché in Hermosillo.

           Later that day, HSI special agents in Hermosillo interviewed the occupants of the
           car from which the 41 weapons were seized. ATF agents in Hermosillo did not
           attend the interview. However, the ATF Tucson field office agents assisted HSI
           Tucson special agents in additional investigative activities of the Tucson
           residence that was linked to the Naco seizure.

           HSI Arizona Field Office Staff Develop Concerns About ATF’s Investigation

           HSI Arizona staff developed concerns when ATF briefed its investigation to them
           on November 30, 2009. HSI staff from Hermosillo, Mexico and the HSI Tucson
           DSAC office, ATF Tucson field office agents, and U.S. Marshal’s Service agents
           attended in person. The ATF Phoenix agents who led the investigation of the
           straw purchasers joined the briefing by teleconference.

           An HSI special agent summarized the meeting in an email message, which he
           sent to the HSI SAC and other senior leaders. The summary stated that ATF
           Phoenix agents initiated an investigation in late October 2009 upon receipt of
           information from an ATF source. The investigation focused on a group of straw
           purchasers who had purchased numerous high caliber rifles from FFLs in the
           Phoenix area. ATF had identified the suspects’ telephone numbers and
           addresses, and a vehicle repair shop thought to be a storage location for the
           weapons before they were transported to Mexico. ATF said that it had been
           communicating with an HSI special agent in Phoenix for assistance with
           investigating the suspected transportation cell at the vehicle repair shop,
           although ICE subsequently learned that this information was incorrect. ATF
           asked HSI special agents to call ATF before contacting any individuals identified
           through eTrace queries.

           During our interviews, some HSI staff members who attended the meeting
           provided more information. They said that during the meeting they learned that
           ATF was stopping surveillance without seizing the weapons. ATF had said that it
           followed straw purchasers from the FFL to a vehicle repair shop. Once there,

www.oig.dhs.gov                                23                                       OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

           ATF stopped surveillance. ATF did not care where the guns went after they
           arrived at the shop, according to one HSI staff member. The ATF methodology
           did not adhere to HSI policies and procedures for contraband smuggling
           investigations. Three HSI Arizona staff said that ATF’s methodology violated HSI
           training. An HSI staff member commented about how obvious it was that ATF
           was allowing weapons to be smuggled to Mexico. Another HSI staff member
           said that he had an “overwhelming feeling of concern” because ATF’s plan did
           not seem to include a strategy or activities to stop weapons from going to
           Mexico.

           During the meeting, HSI staff tried to influence ATF to modify its investigative
           plan to reduce the likelihood that weapons would be lost. The HSI special
           agent’s summary of the meeting stated that HSI special agents suggested that
           ATF initiate surveillance of the vehicle repair shop and take other investigative
           methods to establish probable cause that the business or its employees were
           involved in weapons smuggling. ATF staff said that the agency was attempting to
           obtain funds to install a surveillance device at the vehicle repair shop, but had
           not yet received the funds. HSI offered to provide a surveillance device of its
           own. HSI asked ATF to call HSI for assistance if surveillance indicated that
           weapons were leaving the vehicle repair shop. In response to HSI’s suggestions,
           ATF agents said that that they already were working with an HSI special agent in
           Phoenix to determine whether the suspects were using vehicles to transport the
           weapons to Mexico. During their interviews with us, HSI Arizona special agents
           and their chain of command said that ATF’s claim that it had been working with
           HSI Arizona to investigate the transportation cell was false.

           HSI special agents and senior staff who were aware of the conflicts with ATF
           regarding the Naco seizure were concerned that ATF did not respond to HSI’s
           suggestions to improve its investigative plan and activities. An HSI Arizona ASAC
           who attended the meeting sent an email message to the HSI SAC, and other HSI
           Arizona senior leaders and agents. The ASAC’s message stated, “I think the
           consensus of those of us on the call was that ATF is not working vigorously
           enough to track the weapons and ensure the guns aren’t going south. They have
           260 + guns still unaccounted.” The HSI ASAC who wrote the message said that
           ATF did not seem to be tracking the weapons beyond the vehicle repair shop.
           The ASAC was especially concerned about the investigation because it had
           allowed 41 high-caliber weapons to be transported through his area of
           responsibility and smuggled across the border. He said that the volume of
           weapons being investigated was “scary” and only worsened over time.




www.oig.dhs.gov                               24                                       OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           Three HSI Arizona staff said that the fact that ATF surveilled suspicious sales and
           followed straw purchasers from the FFLs to the vehicle repair shop clearly
           conveyed that ATF had opportunities to take enforcement action to stop the
           weapons from being sold and from being smuggled into Mexico. One said it was
           obvious that ATF was letting “guns walk.” However, the HSI SAC and another
           senior leader stated that they did not interpret the information received from
           ATF about the investigation the same way. Rather, they thought that ATF merely
           learned about the sales after the fact by reviewing the FFLs’ records of
           completed weapons transactions. The HSI SAC stated that he did not learn that
           ATF had advance notice of the suspect sales until a year later, in December 2010.

           On December 1, 2009, the HSI senior special agent discussed the ATF case with
           the ATF lead case agent. She told him that ATF intended to conduct a long-term
           investigation using a Title III wiretap, and intended to obtain OCDETF
           certification.

           Some HSI Arizona Staff Concluded That ATF Had Opportunities to Seize
           Weapons, but Did Not

           As a result of the Mexican Aduana’s seizure of weapons in Naco, HSI learned the
           following facts about ATF’s investigative plan:
               •	 Several suspected straw purchasers had purchased more than 260
                   weapons; those that had not been seized already were to be smuggled to
                   Mexico;
               •	 ATF intended this to be a long-term OCDETF investigation and it sought to
                   obtain a Title III wiretap;
               •	 ATF had conducted surveillance of at least some of the sales and followed
                   the suspected straw purchaser and the weapons to a vehicle repair shop;
               •	 ATF dropped surveillance at the vehicle repair shop, which would allow
                   the weapons to be smuggled into Mexico without government
                   knowledge;
               •	 At least 41 weapons had been transported to Mexico, and ATF did not
                   have a strategy to prevent more weapons from going to Mexico;
               •	 ATF did not want HSI to work independently on the weapons seized in
                   Naco; and
               •	 ATF had not notified HSI of its investigation until after Aduana, the
                   Mexican customs authority, requested HSI assistance and cooperation in
                   investigating the weapons seized in Naco.

           From these facts, some HSI Arizona staff concluded that ATF had the ability to
           stop the weapons from being transported to Mexico, yet, ATF’s methodology

www.oig.dhs.gov                                25	                                       OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           allowed the weapons to be lost and transferred to criminals. The methodology
           violated HSI policy and training. The HSI SAC said that he did not realize the
           extent of the problem, but he was concerned that weapons in an ATF
           investigation had been transported to Mexico. HSI Arizona senior leaders and
           special agents tried to influence ATF’s plan to further the investigation and stop
           weapons from being transported to Mexico. They suggested alternative
           surveillance methods and offered assistance. However, ATF did not incorporate
           HSI’s ideas.

           In addition to being concerned about ATF’s investigative methodology, HSI
           Arizona staff were concerned that ATF had not alerted them to the investigation
           earlier. The ICE/ATF MOU recognized ICE authority in weapons smuggling
           investigations and required ATF to notify HSI “timely” when it encountered
           investigative leads that would fall within HSI authority. Since October 31, 2009,
           ATF had suspected the straw purchasers were smuggling weapons to Mexico.
           However, ATF did not notify HSI about the investigation until November 25,
           2009, more than three weeks after the investigation began. Additionally, HSI
           only learned about the ATF investigation when ATF became concerned about an
           HSI investigation of some of the suspect weapons. HSI Arizona staff said that
           ATF violated the ICE/ATF MOU. The HSI SAC said that he did not raise that
           concern to ATF because he cannot force ATF to work with HSI. Also, because the
           AUSA agreed to support ATF’s investigation of crimes that are solely within HSI
           jurisdiction, there was nothing he could do about it.

           HSI Special Agent Assigned to Assist ATF Initially Was Not Given Duties or
           Provided Information Related to the Investigation

           In late November 2009, HSI Arizona assigned a new HSI special agent to assist
           ATF with its investigation of the weapons seized in Naco; initially, however, ATF
           did not give the HSI special agent work or provide him with information about
           the investigation. The HSI special agent had worked with ATF for eight years as a
           regulatory inspector before joining HSI in 2008. An HSI group supervisor
           directed the HSI special agent to open a case file on the Naco seizure, and
           communicate and coordinate with ATF on this aspect of its investigation. The
           HSI special agent said that he never had an opportunity to open a case file for
           the Naco seizure because he did not have any information or investigative
           activities to report.

           Although the HSI special agent was assigned to the investigation, a more senior
           HSI special agent communicated with ATF about its investigation. The senior
           special agent had been an HSI liaison to ATF in the past, and had conducted

www.oig.dhs.gov                                26                                        OIG-13-49
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           successful HSI investigations of weapons smuggling to Mexico. HSI considered
           the more senior special agent to be a subject matter expert on investigations of
           weapons smuggling to Mexico. During the first week of December 2009, the HSI
           senior special agent was the primary point of contact with the ATF case agent.
           The senior HSI special agent was not able to obtain detailed information about
           the ATF investigation.

           HSI Arizona senior leaders expected ATF to request assistance with surveilling
           the vehicle repair shop, but ATF never made a request. The HSI special agent
           and HSI did not conduct surveillance of the vehicle repair shop because it would
           have been improper to work on ATF’s case without a request from ATF. Because
           of ATF’s insistence that HSI not proceed with investigation of the Naco seizure,
           ATF’s refusal to provide eTrace information, and ATF’s reluctance to request HSI
           assistance, HSI Arizona abandoned its efforts to find the smugglers responsible
           for the 41 weapons discovered in Naco.

           HSI Initiated a Second Smuggling Investigation, Which Was Related to the ATF
           Investigation

           The circumstances of another seizure of weapons indicate that ATF did not
           involve HSI in planning the operation, or provide HSI with information about the
           investigation in a timely manner. Because of work that HSI and the Douglas
           police department had conducted with a confidential informant, on December 9,
           2009, the Douglas police department seized nine AK-47 style rifles and nine 30­
           round magazines after stopping a vehicle that had been traveling at a high rate
           of speed toward a port of entry. HSI entered eTrace inquiries for the weapons,
           and intended to open an investigation of the weapons with assistance from ATF.
           However, later that day, HSI learned that the weapons had been claimed by ATF
           as a part of the same investigation that tracked the suspected straw purchasers
           who bought the weapons seized in Naco, and ATF had blocked the eTrace results
           again.

           HSI Arizona dispatched its senior special agent and the special agent to discuss
           the Douglas seizure with ATF Arizona staff on December 10, 2009. While
           returning from the meeting with ATF, the two HSI Arizona special agents
           discussed concerns that ATF had not arrested any suspects yet. The HSI senior
           special agent also discussed different investigative strategies HSI would take if it
           were the lead agent on the case. Upon return to the office, the HSI senior
           special agent summarized in an email message what they had learned from the
           meeting with ATF:



www.oig.dhs.gov                                 27                                         OIG-13-49
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

                  •	 The HSI and ATF agents had discussed conducting an interview with the
                     source of information related to the Douglas seizure;
                  •	 ATF had identified the smuggling ring’s organizational head and 24
                     suspected straw purchasers;
                  •	 The straw purchasers had purchased, from 4 different FFLs,
                     approximately 300 weapons that had “presumably been smuggled to
                     Mexico;”
                  •	 There had been a third seizure in Nogales of six of the weapons

                     purchased by the suspected straw purchasers;

                  •	 ATF did not have much evidence to link the weapons to a specific drug
                     trafficking organization;
                  •	 ATF did not have information about how the weapons were being
                     transported into Mexico; however, ATF had identified a business at which
                     the smuggling ring obtained vehicles; and
                  •	 ATF sought to certify the investigation for OCDETF funding and intended
                     to establish a Title III wiretap.

           The HSI senior special agent sent the email message to his group supervisor, who
           forwarded the message to another group supervisor involved in the Naco
           weapons seizure.

           HSI Arizona staff members were concerned about the expansion of the ATF
           investigation. In response to the email message, an HSI senior official forwarded
           the email message to the HSI SAC and other HSI Arizona senior leaders. One of
           the HSI ASACs wrote “[o]n a sarcastic note – with the 42 in Naco, Son., and now
           the 9 here in Douglas, ATF is down to only 250 (give or take) unaccounted.”

           The HSI SAC said he remembered the basic contents of the message, and that at
           that time, he was frustrated. He said that at the time he thought, “[i]f ATF is
           conducting an investigation of all of these guns, how is it that they are showing
           up at Mexican ports of entry?”

           Other HSI special agents were concerned by the email message as well. One HSI
           Arizona staff member said that from what he learned from this message and the
           Douglas seizure, this was “gun walking.” Another HSI Arizona senior leader said
           that he knew then that ATF was identifying straw purchasers and not doing
           anything with them. He said that ATF should not have dropped surveillance of
           the straw purchasers after they obtained weapons.

           An HSI Arizona staff member said after he read the email message, he was
           concerned that ATF was engaged in the same flawed methodology that they

www.oig.dhs.gov                                  28	                                    OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

           used in 2007 and 2008 when ATF allowed weapons to be smuggled into Mexico
           without adequate controls to ensure that the weapons were interdicted before
           reaching criminal organizations. HSI Arizona had stopped one load of weapons
           from crossing the border, and advised ATF not to allow other loads to cross.

           On December 11, 2009, the HSI senior special agent who had communicated
           with ATF about the investigation learned more facts that concerned him when
           he spoke again with the ATF lead case agent. The HSI senior special agent
           summarized the conversation in an email message that he sent to his group
           supervisor, who forwarded it to the HSI SAC and other HSI Arizona senior
           leaders. The email message included the following information:
               •	 ATF added almost 200 additional guns to its suspect gun database within
                  the last day, which brought the total number of weapons purchased by
                  suspected straw purchasers to approximately 500;
               •	 On December 10, 2009, 50 weapons related to the investigation were
                  seized in Mexicali, Mexico;
               •	 The straw purchasers were making multiple purchases at the same FFLs;
                  and
               •	 The owner of one of the FFLs that sold the weapons to the straw
                  purchasers was nervous about liability and planned to meet with ATF and
                  the USAO staff.

           One of the HSI senior leaders who received the email message replied to all of
           the original message’s recipients, “I’m speechless. Even the owner knows this
           ain’t right, and ATF apparently doesn’t get it.” The HSI SAC replied that HSI
           should enlist the confidential informant who assisted with the Douglas seizure
           (confidential informant). The confidential informant could assist ICE in
           conducting a cold convoy to identify the facility where the weapons were stored
           prior to being smuggled to Mexico. Another HSI senior leader responded that
           HSI special agents already had scheduled a meeting with the confidential
           informant the following week to discuss securing assistance with a cold convoy.

           From the weapons seizure in Douglas and the ensuing conversations with ATF,
           HSI learned that:
               •	 24 suspected straw purchasers had acquired approximately 500

                   weapons, and 200 were added to the list in one day;

               •	 Approximately 100 already had been seized by law enforcement either in
                   Mexico or in transit to Mexico;
               •	 The same straw purchasers were making multiple purchases;
               •	 ATF did not know how the weapons were being transported to Mexico;


www.oig.dhs.gov                               29	                                     OIG-13-49
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

                  •	 ATF did not have much information to link the weapons smuggling ring to
                     a specific drug trafficking organization;
                  •	 One of the FFLs was nervous about its liability; and
                  •	 USAO must strongly support the investigation because an AUSA was
                     going to talk with the FFL.

           Those facts led several HSI Arizona staff members to conclude that ATF had the
           ability to stop some of the sales, but did not.

           The HSI SAC said that ATF deceived him into thinking that its investigative
           technique relied entirely on post-sales information. He said that ATF Arizona
           senior leaders had told him that ATF was obtaining the list of straw purchases
           from review of firearms purchase documentation and from research of weapons
           seized in Mexico. Also, after Operation Fast and Furious was exposed in the
           media, he came to believe that ATF had stopped the vehicle with the weapons in
           Douglas earlier on the same day that the Douglas police department stopped it;
           he also believed that ATF did not inform HSI that it had stopped the vehicle.7
           Doing so would have alerted the HSI SAC to the fact that ATF’s investigation was
           more than a review of post-purchase weapons sales documents.

           The HSI SAC said that he did not inform ICE headquarters of the issues with ATF
           because he did not know that ATF was able to stop the weapons from being
           smuggled to Mexico. He said that during December 2009 he was managing what
           he thought were simply deconfliction issues with ATF at the local level in
           accordance with the ICE/ATF MOU.

           ATF and the AUSA Resisted HSI Plans To Assist by Investigating AECA Violations

           HSI tried again to improve ATF’s investigative plan by proposing to conduct a
           cold convoy in which HSI special agents would monitor the transport of suspect
           weapons. HSI had learned that the weapons smuggling organization wanted to
           transport two loads of weapons from a Phoenix storage location to the Douglas
           port of entry. HSI developed a plan to use the confidential informant to talk with
           the smuggling ring members and learn the details of their plan to transport the
           weapons. If HSI knew the timing and locations, HSI could observe the suspects


   7
    In comments to our report, DOJ said that HSI personnel’s understanding of the facts was inaccurate.
   DOJ said, “ATF conducted surveillance of a weapons purchaser and alerted local Phoenix police to the car
   he was driving. The police stopped the vehicle, only to let the purchaser/driver go because he claimed
   the weapons as his own. Hours later, the Douglas police stopped a different vehicle driven by another
   driver but which contained nine of the firearms purchased by the individual stopped in Phoenix earlier
   that day.”

www.oig.dhs.gov                                       30	                                             OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

           as they loaded weapons into the vehicles and follow the vehicles to the Douglas
           port of entry, where CBP would know to stop the cars and seize the weapons.
           HSI special agents would charge the drivers with AECA violations, which carry a
           maximum ten-year sentence. They would use the charge as leverage to pressure
           the vehicles’ occupants to provide information about the smuggling ring.

           During the week of December 14, 2009, the HSI Arizona senior special agent and
           the HSI special agent met the confidential informant. They did not invite the ATF
           lead case agent to the meeting. The HSI senior special agent said that it would
           have been inappropriate to bring an outside agency to the initial meeting with
           the confidential informant. Two other HSI Arizona staff told us that they agreed
           with his assessment, and two others disagreed. During the meeting, the HSI
           special agents determined that the confidential informant was suitable and
           willing to work with them.

           According to HSI Arizona staff, ATF became more concerned about HSI
           involvement in the investigation when it learned that HSI interviewed the
           confidential informant and that HSI wanted to identify the transportation cell by
           conducting a cold convoy. Four HSI Arizona staff members familiar with the
           situation said that when the ATF lead case agent learned that HSI had
           interviewed the confidential informant without her, she became angry. She
           informed her chain of command. On December 17, 2009, the ATF ASAC for the
           investigation called the HSI senior special agent’s ASAC and said that ATF had
           concerns about the cold convoy plan and concerns that the ATF lead case agent
           had not been invited to the interview with the confidential informant. The HSI
           ASAC responded that HSI would tell ATF of any HSI plans that were related to the
           ATF investigation.

           Later in the afternoon of December 17, 2009, an HSI ASAC sent an email
           message to the ATF ASAC to suggest that they meet with their case agents to
           “work this thing out.” The HSI ASAC said, “[h]ave your agent bring her case file
           and we will bring ours so that we can deconflict and talk about agency interests
           etc…” The HSI ASAC sent an email message to the HSI SAC and other senior
           leaders to inform them of the proposed meeting, which would be scheduled in
           January 2010. In an email message dated December 18, 2009, the HSI SAC said
           that he would not attend the meeting, but wanted to coordinate HSI’s message
           before the meeting with the HSI staff who would attend. The understanding that
           issues should be resolved at the lowest level was reflected in the message, which
           said that the ASACs should attempt to resolve the problem “without having to
           raise it to a higher level.”



www.oig.dhs.gov                               31                                       OIG-13-49
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           In the message exchange, one HSI Arizona senior leader expressed his desire to
           have an open exchange of information with ATF and to include HSI in future,
           coordinated plans:

                  My intent is to go to the meeting with my GS [group supervisor]
                  and case agents, with case file in hand…Hopefully, we can compel
                  reciprocity. I think it comes down to whether they are willing to
                  bring Phoenix HSI on board with what they have so we can
                  pursue a coordinated effort.

           With regard to ATF hesitance to use the confidential informant, three HSI
           Arizona staff said that ATF wanted to obtain a Title III wiretap, but having a
           confidential informant would undermine ATF ability to obtain one. Using an
           informant would have taken time and not allowed ATF to exhaust other normal
           investigative procedures quickly, they said. Title III wiretaps generally are not
           granted unless normal investigative procedures reasonably appear to be unlikely
           to succeed or to be too dangerous.

           In addition to ATF resistance to the HSI plans, four HSI Arizona staff members
           said that the AUSA directed HSI not to use the confidential informant to pursue
           the transportation cell.

           HSI suspended work on the controlled delivery until it met with ATF to devise a
           plan that each agency and the AUSA supported. The meeting to resolve the
           controlled delivery issues occurred on January 15, 2010. Six HSI staff members
           attended the meeting. The highest ranking was an ASAC who served as the HSI
           spokesperson at the meeting. Several senior leaders in ATF attended, but the
           ATF case agents did not. The AUSA who had been working with ATF on the
           investigation attended, as did a representative from DEA.

           During the meeting, the HSI ASAC did not urge that HSI use the confidential
           informant to assist with a controlled delivery. Instead, he offered to facilitate
           ATF’s use of the confidential informant and agreed that HSI would not continue
           to pursue a controlled delivery unilaterally or otherwise seek assistance from the
           confidential informant. His remarks surprised some HSI colleagues who thought
           that his statements reversed HSI goals to pursue the smuggling organization’s
           transportation cell. With this offer, HSI effectively gave up a strong investigative
           lead for identifying the individuals who smuggled weapons into Mexico.

           The HSI ASAC proposed that HSI pursue another lead for identifying the
           transportation cell. DEA provided HSI the lead after initially providing it to ATF.

www.oig.dhs.gov                                 32                                        OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

           The AUSA and ATF agreed to this proposal. We discuss the HSI investigation of
           the DEA lead later in our report.

           The HSI Special Agent Began to Participate in the ATF Investigation and
           Obtained More Information That Confirmed the Flawed Methodology

           In mid-January 2010, ATF began to engage the assistance of the HSI special agent
           who HSI Arizona senior leaders had tasked with helping ATF with its
           investigation. The HSI special agent eventually moved to the OCDETF office
           space that the ATF investigation’s case agents and management used. During
           January 2010, the HSI special agent learned that ATF sometimes received
           information about prospective sales from FFLs in advance of the sales. He also
           received information that showed that ATF had surveilled suspected straw
           purchasers’ weapons purchases, but seemingly had not taken enforcement
           actions. He opened a case file in TECS, the electronic information system HSI
           uses to document and track investigations. Using information received from
           ATF, he drafted his first ROI, which he completed on January 22, 2010.

           Before he submitted the initial ROI, the HSI special agent prepared a draft
           version that contained more details about what he had learned about the ATF
           investigation. On January 12, 2010, he sent this version to an HSI colleague. It
           stated that that the investigation began with the ATF case agent’s review of FFL’s
           sales documents, which revealed multiple purchases of high-caliber firearms by
           four individuals and indicated possible straw purchases. In November 2009,
           according to the draft report, ATF agents observed 2 separate weapons
           purchases of 10 AK-47 style rifles by 2 of the suspected straw purchasers. The
           draft report also states that in November and December 2009, the Mexican
           government seized 85 weapons that had been purchased by the investigation’s
           suspected straw purchasers. That draft version does not mention any efforts by
           ATF to stop the suspects or seize the weapons.

           The HSI special agent did not include the information about surveillances and
           seizures in the final version of the ROI that he entered into TECS on January 22,
           2010. The HSI special agent said he does not remember why the report does not
           contain the more specific information, but it is possible that ATF requested that
           he not include it in the official report.

           In reviewing the draft version with us, the HSI SAC agreed that the draft’s
           description of surveillance indicated that ATF’s investigation involved more than
           post-purchase reviews of FFL sales documentation. He said he was concerned by
           the document and would have liked to have known what happened to the AK-47

www.oig.dhs.gov                                33                                       OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

           style rifles. However, he had not received the draft ROI when it was written, and
           the information about the surveillance was new to him.

           The HSI SAC said that if he had been provided the full details that were present
           in the draft version, it might have corrected his misperception about ATF’s
           investigation. However, the information he received was that the ATF
           methodology consisted simply of a review of FFL sales records and that ATF did
           not have the opportunity to take enforcement action. The draft version confirms
           that the investigation started with a review of the forms, but also states that by
           at least January 12, 2010, the date of the draft report, ATF observed suspected
           straw purchasers make additional purchases without taking any enforcement
           actions.

           The HSI special agent’s group supervisor and the HSI senior special agent also
           had not seen the draft version until we reviewed it with them. The group
           supervisor and senior special agent said that they had already known that ATF
           had advance knowledge of suspicious sales and that it dropped surveillance
           prematurely. Therefore, they were not surprised by the information contained
           in the draft version. ATF had told them in December 2009 that it had surveilled
           purchases and stopped surveillance without seizing the weapons. ATF had also
           said that some of the weapons were recovered in Mexico. The HSI special agents
           knew that ATF had opportunities to stop the weapons from being smuggled, but
           did not take action.

           ATF Proposal to Obtain OCDETF Certification for Its Investigation Supplied
           Additional Information About ATF’s Methodology

           On January 25, 2010, the HSI SAC and two subordinates received the proposal to
           certify the ATF investigation as an OCDETF operation. The proposal named the
           HSI special agent and an ATF agent as co-case agents for the operation. Case
           agents are the leaders for an investigation, and make day-to-day operational
           decisions for the case. The committee meeting to vote on the proposal was
           scheduled for January 26, 2010. The HSI SAC said that he did not read the
           proposal and did not attend the committee meeting. The OCDETF
           representative read it but did not attend the committee meeting; his colleague,
           who also received the proposal, attended instead.

           The OCDETF proposal stated that the operation’s goal was to identify and arrest
           members of a specified weapons trafficking organization cell based in the United
           States and to gather information on the Mexican drug trafficking organization
           that directs it. Investigative tools mentioned in the proposal include tracking

www.oig.dhs.gov                                34                                       OIG-13-49
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security

           devices, Title III wiretaps, and other surveillance. The proposal also stated that
           the investigation had already identified 17 straw purchasers, “who have
           purchased a large amount of AK-47 style rifles and pistols… since September
           2009.” They were identified through a source of information, FFL record checks,
           and surveillance operations. Surveillance had revealed two storage locations for
           the purchased weapons. The proposal stated that ATF agents believe that the
           weapons were being hidden in vehicle compartments and transported through
           the ports of entry. Without providing the total number of suspected weapons
           seized, the proposal noted that there had already been six seizures in the United
           States and five seizures in Mexico.

           A number of staff noted problems with the proposal and several said that HSI
           should not have signed it, given those problems. Four HSI Arizona staff members
           said that the proposal was flawed because it linked the weapons smuggling ring
           to a single Mexican drug cartel, which could not be accurate. The proposal
           noted seizures of weapons in various locations in Mexico, Texas, and Arizona.
           The recovery locations were in territories of various drug cartels, not just the one
           mentioned in the proposal. HSI staff also stated that in their experience,
           weapons smuggling rings do not work for just one cartel; instead, they will sell to
           anyone interested in buying the weapons. One staff member said that he
           thought that by linking the weapons to a single drug trafficking cartel, ATF had
           falsified its proposal to receive OCDETF certification and funding.8

           The HSI SAC had assigned staff to read OCDETF proposals and contact HSI staff
           who should be aware of them. Although he had not read the proposal, the HSI
           SAC agreed that the widespread seizure locations indicated that the weapons
           smuggling ring was not working for a specific cartel. The HSI SAC said that the
           January 15, 2010 messages he received informing him of seizures in El Paso
           (which we discuss in the next section of this report) undercut the ATF theory that
           the cartel members named in the proposal were linked to the smuggling ring.

           Before the proposal arrived, the HSI SAC had already decided to participate on
           the OCDETF operation and to dedicate a special agent to the investigation on a
           full time basis. However, if the HSI SAC had read the proposal, he might not
           have maintained the belief that ATF had identified the straw purchasers after
           weapons sales by reviewing FFL purchase records and obtaining information
           about weapons that were seized. The proposal stated that ATF used three
           methods for identifying straw purchasers: FFL purchase records, sources of
           information, and surveillance. If ATF received information from surveillance and
   8
    In its report, A Review of ATF’s Operation Fast and Furious and Related Matters, DOJ OIG did not
   conclude that there was any fraudulent conduct related to the preparation of the OCDETF proposal.

www.oig.dhs.gov                                      35                                                OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           sources of information other than purchase records, it had the opportunity to
           seize weapons. The seizures mentioned in the proposal might have indicated
           that ATF had engaged in proactive enforcement; however, HSI Arizona staff
           already knew that the seizures were not orchestrated in advance by ATF.
           Instead, Mexican and state and local law enforcement agencies had made the
           seizures without advance information from ATF. However, because the HSI SAC
           had not read the proposal, his understanding of the ATF methodology remained
           unchanged.

           HSI Received Additional Information Related to the ATF Methodology

           In January 2010, the HSI SAC and other senior leaders learned that some of the
           weapons purchased by the ATF investigation’s suspected straw purchasers had
           been recovered in Texas. The HSI SAC and senior leaders received an email
           message on January 15, 2010, that said that on January 13, 2010, HSI had seized
           2 AK-47 style rifles and 4,000 rounds of ammunition at the Ysleta port of entry in
           Texas. The next day, an ATF intelligence officer contacted an HSI intelligence
           officer to request information about the seizure. The ATF intelligence officer
           said that the seized weapons had been purchased in Phoenix on the same day
           that they had been seized. Additionally, the weapons were related to an
           ongoing investigation conducted by HSI and ATF in Phoenix.

           Later on January 15, 2010, the HSI SAC received another email message related
           to the seizure at the Ysleta port of entry. That message mentioned that seizure
           and another at a house in El Paso, Texas, where officers seized 42 weapons. The
           message said that on January 12, 2010, DEA had provided information to ATF
           that weapons purchased in Phoenix would be transported to El Paso. ATF had
           been closely monitoring El Paso weapons seizures since then, and 42 weapons
           were seized on January 14, 2010. One of the operation’s suspected straw
           purchasers had purchased all of the weapons.

           These email messages indicate that a person who ATF had already identified as a
           straw purchaser had recently purchased again. The straw purchaser obtained 42
           weapons and transported them to another state within the same day. After
           identifying straw purchasers, ATF did not stop them from continuing to purchase
           large numbers of weapons and transporting them to other states, and ultimately
           to the Mexican border. The messages also indicate that ATF was not
           communicating with HSI about the case. ATF had known for days that weapons
           might be transported to El Paso, but did not inform HSI.




www.oig.dhs.gov                                36                                       OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           HSI SAC Discovered the Operation’s Flawed Methodology When He Received a
           Briefing Paper from the ATF SAC

           The HSI SAC said that he first learned that the Operation Fast and Furious
           investigative methodology was flawed on December 3, 2010, as the task force
           prepared for grand jury indictments and a press conference. The ATF SAC sent
           an Operation Fast and Furious briefing paper to the HSI SAC to assist the HSI SAC,
           who needed a summary to send to senior ICE leadership. The briefing paper
           stated:

                  Agents believe that from October 2009 to October 2010, agents have
                  documented that this organization spent approximately 1.25 million
                  dollars in cash at various Phoenix area [FFLs] to acquire in excess of 1,900
                  firearms. The firearms are then being trafficked to Mexico using false
                  compartments in various vehicles through various international Ports of
                  Entry in Arizona and Texas… To date over three hundred firearms and
                  over fifty pounds of marijuana have been recovered by agents in addition
                  to the numerous firearms and narcotic seizures in Mexico related to this
                  investigation.

           The HSI SAC said that this was his first indication that ATF was not taking every
           precaution to stop weapons from crossing the border to Mexico. He said that
           the statement that weapons were trafficked through ports of entry by means of
           compartments in cars indicated that ATF must have had specific knowledge that
           weapons were being smuggled to Mexico. He said that he had not been aware
           of that during the course of the operation.

           The HSI SAC forwarded the briefing paper to others but did not mention his
           concerns. Instead, he provided it to an HSI DSAC and asked that HSI Arizona staff
           deconflict names of subjects listed on the briefing paper to ensure that their
           indictment and arrest would not affect any HSI cases. The DSAC forwarded the
           briefing paper to an HSI ASAC and stated that in addition to the deconfliction,
           “…we also need to make sure we are staying well represented in all of this.
           Given the scrutiny on HSI/ATF relations, and in particular the relationship here, I
           anticipate lots of eyes on this from HQ.”

           The HSI special agent’s group supervisor replied, “[the HSI special agent] has
           been working on this with ATF. He is fully involved in this and all of the suspects
           and info are in TECS.” The HSI staff members did not express any concern or
           surprise in their response to the briefing paper. Instead, HSI Arizona senior



www.oig.dhs.gov                                37                                        OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           officials continued to coordinate with ICE headquarters to schedule ICE officials’
           attendance at an upcoming press conference to announce the indictments.

           Some of the phrases in the briefing paper were almost identical to wording in
           the OCDETF proposal, which stated, “[a]gents believe that… The firearms are
           then being trafficked to Mexico using non-factory compartments in various
           vehicles through various Ports of Entry (POEs) in Arizona and Texas.”

           The HSI SAC had not read the OCDETF proposal, and so he would not have seen
           the wording. Had he read the proposal before approving the assignment of the
           HSI special agent to the operation, or if someone had alerted him to the
           language, he might have realized that the investigative methodology violated HSI
           policy, training, and practices.

           In a case summary that the HSI special agent sent to his group supervisor on
           December 7, 2010, he wrote that, “[a]s of August 2010, this organization has
           purchased an estimated 1,916 firearms… Of these purchases, 316 firearms have
           been recovered domestically and 188 have been recovered in the Republic of
           Mexico.” According to the summary, 1,412 firearms still had not been
           recovered.

           HSI SAC and Two Others Did Not Understand that ATF Had Ability to Stop
           Weapons Smuggled into Mexico

           The HSI SAC and two other HSI Arizona senior leaders said that prior to receiving
           the December 3, 2010 briefing paper, they thought that ATF was conducting a
           historical investigation, one in which ATF received purchase documentation after
           the sales had been completed. One said that he was not fully aware of the
           methodology, but that HSI had an “inkling” of it. The three said that they did not
           learn about the faulty methodology until December 2010, a year after they first
           learned of ATF’s investigation.

           Upon review of the email messages from December 2009 that we discussed
           earlier in the report, the three HSI senior leaders said that when read together,
           the messages provided information showing that ATF had opportunities to stop
           the weapons, but did not take action. The messages indicated that:
               •	 Suspected straw purchasers made multiple purchases of unusually large
                    numbers of weapons sought by Mexican criminal organizations, AK-47
                    style rifles and pistols;
               •	 ATF had advance notice of at least some of the sales and conducted
                    surveillance of the purchases;

www.oig.dhs.gov                                38	                                       OIG-13-49
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

                  •	 ATF terminated surveillance prematurely in a manner that was contrary
                     to HSI policies and training, and the weapons were lost to government
                     scrutiny; and
                  •	 ATF had been tracking at least 500 weapons, and in December 2009,
                     approximately 100 had already been seized by government authorities in
                     Mexico and the United States.

           However, the HSI senior leaders said, given the high volume of email messages
           about a wide range of investigations that they received in December 2009, they
           had not pieced the information together and had not understood the problems
           with ATF’s methodology.

                     HSI Arizona Staff Recall Discussing ATF’s Methodology with the HSI SAC

                     During interviews in Arizona, 14 HSI staff members said that in December
                     2009 they knew that ATF was compiling a list of straw purchasers and not
                     doing enough to track the weapons and stop them from crossing the
                     border. They all said that the facts caused them concern. One described
                     the investigative methodology as “gun walking” and another described it
                     as a “train wreck.” Four HSI Arizona staff members said that they had
                     discussed these concerns with the HSI SAC. Three HSI Arizona staff
                     members said that they had told the HSI SAC that HSI should not place a
                     special agent on the OCDETF investigation. However, they said, the HSI
                     SAC was not persuaded.

                     Some speculated that the HSI SAC did not take some arguments seriously
                     because two staff members had not been able to foster good
                     relationships with ATF in the past. However, three senior leaders,
                     including the HSI SAC, said that they did not remember the conversations
                     about problems with ATF’s methodology or with assigning an HSI special
                     agent to Operation Fast and Furious.

                     Similar concerns about ATF’s methodology in prior weapons smuggling
                     investigations gave some HSI Arizona staff insight into ATF’s methodology
                     in Operation Fast and Furious. Five HSI special agents said that the
                     methodology ATF was employing in the case that became Operation Fast
                     and Furious was similar to the methodology ATF used in its investigations
                     in 2007 and 2008. The HSI SAC and other senior leaders were aware that
                     in those years ATF conducted weapons smuggling investigations that
                     allowed or attempted to allow weapons to be transported through the
                     ports of entry and into Mexico. Weapons had been lost, presumably to


www.oig.dhs.gov                                  39	                                     OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

                  Mexican criminal organizations. The HSI SAC had informed HSI
                  headquarters of ATF’s activities in August 2009, and a DSAC provided
                  more information to HSI headquarters in January 2009. Yet, the two
                  senior HSI Arizona leaders said that the prior problems with ATF
                  investigations did not affect their consideration of the facts in this
                  investigation.

           Conclusion

           The substantial amount of information about ATF’s methodology, which was
           distributed among a number of HSI Arizona staff and officials, clearly indicated
           that the ATF methodology was dangerous and did not adhere to ICE policy.
           Numerous HSI Arizona staff who had received the information came to that
           conclusion. We have concerns that the HSI SAC, who also had the information,
           did not determine that procedures used during the task force operation were
           contrary to ICE policies.

           The ICE organizational structure and reporting requirements accord each field
           office SAC with significant responsibilities. The SACs must possess excellent
           judgment to direct their staff, even in dangerous, contentious, and rapidly
           changing circumstances. However, the HSI SAC did not fulfill the requirements
           of his position with regard to Operation Fast and Furious.

           Several Factors Influenced the Decision to Dedicate an HSI Special Agent to
           OCDETF Operation Fast and Furious

           In late December 2009 or early January 2010, ATF asked HSI to dedicate a special
           agent to the investigation once it was certified as an OCDETF operation. ATF said
           it needed an HSI special agent on the operation to contact an appropriate HSI
           field office for coordination with CBP if ATF identified attempts to transport
           weapons across the border. The ICE/ATF MOU requires ATF to notify HSI when it
           needs interdiction assistance at the ports of entry.

           As discussed earlier in the report, the HSI SAC said that he did not realize that
           ATF had advance notice of sales and opportunities to interdict the weapons and
           had no reason to avoid working on the OCDETF operation. He decided to
           cooperate with ATF’s request before he received the OCDETF proposal for the
           following reasons:
               •	 ATF said it needed a single point of contact for coordination and

                  deconfliction;




www.oig.dhs.gov                                40	                                      OIG-13-49
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security

                  •  HSI has sole authority for illegal export of weapons and accordingly HSI
                     needed to be involved to learn more about the investigation and to
                     develop plans to stop the weapons from being smuggled to Mexico;
                  •	 The USAO was firmly in support of the investigation; and
                  •	 The ICE Director instructed the HSI field offices in strong terms to
                     cooperate with ATF, and the ICE/ATF MOU stated that issues with ATF
                     should be resolved at the field level.

           We discussed the reasons for dedicating an HSI special agent to Operation Fast
           and Furious with the other HSI staff in Arizona and ICE headquarters. Everyone
           we spoke with agreed that participating in or assisting with the operation was
           advisable in order to enforce the AECA statute. As law enforcement agents who
           believe that their agency has sole authority to enforce AECA and 18 U.S.C. § 554,
           all of the HSI special agents strongly supported the obligation to enforce those
           laws. Some said that dedicating a special agent to the operation might provide
           them with more information, and therefore a greater likelihood that HSI would
           be in position to enforce AECA and the new statute. However, others said that
           HSI should have worked the smuggling violations separately by using the
           confidential informant and other smuggling leads that could be identified from
           ATF’s investigation of straw purchasers. Conducting the smuggling investigation
           was especially important because they believed that ATF had allowed weapons
           to cross into Mexico in the past, and the special agents did not want to allow
           that to happen again. Most agreed that the USAO’s support for the operation
           was a strong incentive to participate in the operation. They feared that the
           USAO might be less supportive of future HSI investigations if HSI did not agree to
           join the OCDETF Operation Fast and Furious. Also, the USAO is typically the
           arbiter in disputes between agencies. They said that HSI needed to abide by the
           arbiter’s decisions.

           Despite these reasons, some HSI staff members understood that ATF was
           engaged in a dangerous operation that was allowing weapons to be smuggled to
           Mexico. They did not think HSI should have cooperated with ATF by supporting
           the operation. However, the HSI SAC said he did not understand the operation’s
           methodology, and did not question cooperating with ATF.

           Conclusion

           By January 2010, the HSI SAC had received enough information to understand
           the investigative methodology ATF employed in the investigation that became
           OCDETF Operation Fast and Furious. Yet, he said he did not “put the pieces
           together” until almost a year later in December 2010. Without understanding
           the methodology and in light of the desire to enforce the smuggling statutes and
www.oig.dhs.gov                                   41	                                     OIG-13-49
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           the USAO’s support of ATF’s investigation, the HSI SAC’s decision to place a
           special agent on Operation Fast and Furious was reasonable.

           HSI Arizona Attempted to Investigate One Aspect of Weapons Smuggling Ring’s
           Transportation Cell, but Abandoned Another

           At the meeting on January 15, 2010, with ATF, USAO, and DEA, the USAO and
           ATF agreed to allow HSI Arizona to pursue a DEA lead that was connected to a
           part of the smuggling ring that transported the suspect weapons to Mexico. The
           investigation terminated quickly when the suspect stopped using his telephone.
           Later, HSI learned that the suspect died.

           The HSI special agent’s group supervisor also tried to revive ICE efforts to use the
           confidential informant to obtain information necessary to conduct a cold convoy
           and identify other members of the smuggling ring’s transportation cell. His
           supervisor, the ASAC who has since retired, refused the group supervisor’s
           proposal. The HSI SAC and an ASAC said that they thought the confidential
           informant could not be used by law enforcement. Documents reveal, and other
           HSI staff said, that HSI agreed to provide the confidential informant to ATF
           during the January 15, 2010 meeting. HSI never pursued that opportunity and
           does not believe that ATF pursued it either. As a result, the transportation cell
           was not hindered by investigative efforts, and presumably continued to ship
           weapons to Mexico illegally. AECA and 18 U.S.C. § 554 smuggling statutes were
           not enforced.

           HSI Began Investigating the Transportation Cell, but Stopped When the Subject
           Disappeared

           In the January 15, 2010 meeting, ATF and the AUSA had agreed that HSI would
           open an investigation based on information from a DEA wiretap. The
           information indicated that two individuals were obtaining weapons from the
           Operation Fast and Furious subjects and transporting the weapons to Mexico.
           Shortly after the January 15, 2010 meeting, an HSI Arizona special agent
           submitted the wiretap application and conducted other investigative activities.
           As HSI waited for the application to be approved, the telephones in use went
           silent. HSI later learned that one of the suspects was killed before the Title III
           affidavit was approved by DOJ. The HSI case agent said that the other suspect
           and his family became scared and stopped all involvement with weapons
           smuggling. As a result, HSI was not able to investigate the transportation cell
           with that suspect.



www.oig.dhs.gov                                 42                                        OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

           HSI Arizona Senior Leaders Refused to Reconsider Using the Confidential
           Informant to Pursue the Domestic Transportation Cell

           After the January 15, 2010, meeting, the HSI special agent’s group supervisor
           attempted to reinvigorate the HSI effort to work with the confidential informant
           to conduct a cold convoy or to gain intelligence. The confidential informant
           could assist HSI Arizona to obtain detailed and valuable information about the
           transportation cell associated with the weapons smuggling ring. HSI Arizona also
           had planned to use information to conduct a cold convoy. HSI Arizona special
           agents would observe smuggling ring members load weapons into vehicles. HSI
           would follow the vehicle to the border and coordinate with CBP to seize the guns
           at the ports of entry. HSI would charge the vehicles’ occupants with a violation
           of AECA, and use the possible ten-year maximum penalty as leverage to get
           them to provide information and to cooperate with the investigation.

           After the January 15, 2010, meeting with ATF, the AUSA, and DEA, the HSI group
           supervisor asked his ASAC to reconsider the decision not to work with the
           confidential informant. According to the group supervisor, the ASAC refused his
           request. We were unable to interview the ASAC, who has since retired and
           declined a voluntary interview with us.

           When we asked other HSI Arizona senior leaders to explain why HSI did not
           attempt to obtain more information on the transportation cell or conduct the
           cold convoy, three HSI Arizona staff members said that the AUSA supported
           ATF’s direction that HSI not pursue the confidential informant. Two leaders said
           the confidential informant was not viable. They could not remember much
           about why the confidential informant was unviable or when the decision was
           made. They said that it likely was a decision by the group supervisor made in
           coordination with his ASAC. However, two others said that HSI could have used
           the confidential informant to get information about the transportation cell,
           regardless of the confidential informant’s viability.

           The former HSI ASAC declined our request for a voluntary interview, but we
           interviewed the group supervisor. He and the HSI senior special agent, who had
           interviewed the confidential informant, said the confidential informant had
           some issues but none that would render the confidential informant unviable.
           They were not aware of any decision that the confidential informant was found
           unviable. Some suggested that the HSI Arizona senior leaders had given up the
           investigation in another attempt to “get along with ATF.”




www.oig.dhs.gov                               43                                       OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           Two email messages indicate that the source had issues, but was still a viable
           source of information as of January 22, 2010. A message between HSI Arizona
           senior leaders dated December 11, 2009, states that the confidential informant
           “has issues,” but they are “not insurmountable.” A message dated January 22,
           2010, confirms that in the January 15, 2010 meeting with ATF, HSI agreed to
           coordinate a meeting between the confidential informant and ATF. That
           message seems to indicate that the confidential informant was viable.

           As we mentioned earlier in this report, HSI special agents believe that their
           agency has sole authority to enforce two statutes that prohibit weapons
           smuggling, AECA and 18 U.S.C. § 554. As law enforcement officers responsible
           for investigating violations of those statutes, HSI staff members told us that they
           feel obligated to conduct those investigations and enforce the law. Additionally,
           HSI staff members realized that the ATF investigation’s suspected straw
           purchasers had acquired an extraordinary number of weapons and it appeared
           that they would continue to make weapons purchases. At least two members of
           HSI felt it was incumbent upon them to use the confidential informant to help
           them identify and arrest the members of the transportation cell.

           HSI Arizona staff said that after the January 15, 2010 meeting, ATF did not ask
           HSI for assistance with scheduling a meeting with the confidential informant. As
           far as HSI staff members know, ATF never pursued the lead to identify the
           transportation cell. Had HSI wanted to ensure that the smuggling statutes were
           enforced it would have directed the HSI special agent assigned to the task force
           to influence ATF to pursue that transportation angle through Operation Fast and
           Furious. However, the HSI special agent’s chain of command did not direct him
           to pursue the lead.

           Conclusion

           The HSI special agent’s chain of command should have taken a more active role
           to ensure that the lead was pursued. Instead, they complied with ATF’s request,
           supported by the AUSA, that HSI not use the confidential informant to identify
           the transportation cell. The special agent’s chain of command did not direct the
           HSI special agent to pursue the lead on the task force. As a result, HSI was not
           able to ensure that AECA and 18 U.S.C. § 554 were enforced, and the weapons
           continued to flow to Mexico as the task force observed suspected straw
           purchasers acquire more.




www.oig.dhs.gov                                44                                        OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           Recommendation # 1:

           We recommend that the Director of ICE assess whether HSI Arizona senior
           leaders fulfilled their duty to enforce the weapons smuggling statutes for which
           DHS maintains jurisdiction.


           HSI Arizona Placed a Special Agent on Operation Fast and Furious, Did Not
           Provide Oversight Necessary to Prevent His Participation in Activities That
           Violate ICE Policy, and Did Not Attempt to Improve the Investigative
           Methodology

           After HSI Arizona senior officials decided to participate in the OCDETF that would
           conduct Operation Fast and Furious, they determined to assign the HSI special
           agent to the operation. HSI senior officials said that ATF had requested him, and
           they knew he would cooperate with ATF better than some other HSI special
           agents who had more experience working jointly with ATF. However, due to
           several factors, including the HSI special agent’s lack of familiarity with HSI
           weapons smuggling investigation procedures, and absence of HSI oversight and
           direction, he was not able to fulfill some HSI objectives.

           The HSI special agent did not receive much oversight or guidance from his HSI
           chain of command. His group supervisors were aware that he was involved in
           activities prohibited by ICE policy. However, they did not report the problem to
           more senior management because they believed that HSI Arizona senior leaders
           were aware of the problems and chose to do nothing about them. The HSI SAC
           and other senior leaders did not inquire about the HSI special agent’s activities.

           Without much guidance from HSI, the HSI special agent conducted investigative
           activities with other task force members and followed the direction of the ATF
           lead case agent. Some of the activities would not have been permissible under
           ICE policies, training, and practice.

           HSI Assigned the Special Agent Who Had Been Assisting ATF’s Investigation to
           Participate on Operation Fast and Furious

           HSI Arizona senior leaders decided to appoint the HSI special agent who had
           been assisting ATF with its investigation on Operation Fast and Furious. Before
           joining HSI, the HSI special agent worked as an ATF inspector where he
           specialized in firearms regulations. HSI hired him as a special agent in May 2008.
           At the time of his placement on Operation Fast and Furious, the HSI special agent

www.oig.dhs.gov                                45                                        OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           was not familiar with ICE procedures for conducting weapons smuggling
           investigations. Additionally, he had never worked in a task force environment
           before. Despite his limited tenure and experience, his group supervisor was
           instructed to direct the special agent to open a case and assist ATF on its
           investigation in November 2009. Once the investigation was certified as an
           OCDETF operation, HSI Arizona placed the special agent full time on the OCDETF
           Operation Fast and Furious.

           We heard several competing ideas about who made the decision to assign the
           HSI special agent to the operation. Moreover, HSI personnel disagreed about
           whether this decision was made independently. HSI personnel said that the HSI
           SAC, a former HSI DSAC, a former HSI ASAC, group supervisor, or some
           combination thereof made the decision. It appears that the former HSI ASAC
           made the decision to assign the HSI special agent to the operation. The ASAC
           has since retired and declined our request to interview. We also understand that
           two other special agents were considered for the position initially. The HSI
           special agent’s group supervisor said he advised against placing the HSI special
           agent on the operation, but the ASAC rejected his argument.

           HSI Arizona staff provided several reasons for dedicating the HSI special agent to
           the operation. ATF had requested the HSI special agent specifically and already
           had a good working relationship with him. In addition, he had worked as an ATF
           inspector for eight years prior to becoming an HSI special agent. He was
           knowledgeable about weapons laws and regulations, and he knew the ATF
           culture. It would be easier for him to work with ATF because he was someone
           ATF already knew and trusted.

           However, some HSI Arizona staff members said that the reasons for placing the
           HSI special agent on the operation were also reasons not to assign him. HSI
           knew that ATF policies and practices deviated significantly from their own, and
           had knowingly allowed weapons to cross into Mexico in the past. If HSI wanted
           to ensure that the operation enforced the smuggling statutes and weapons did
           not cross into Mexico, HSI needed to assign a special agent who could argue
           persuasively that the ICE policies and practices for weapons cases should be
           adopted. However, given his background, it was unlikely that the HSI special
           agent would be able to do that.




www.oig.dhs.gov                                46                                       OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           The HSI Special Agent Was the Only HSI Special Agent Significantly Involved in
           Operation Fast and Furious

           The HSI special agent was the only HSI staff member to support Operation Fast
           and Furious on a full time basis. After 20 suspects were indicted in January 2011,
           other DHS employees assisted with arrests. They were not involved in the
           flawed surveillance methodology or other activities that contravened HSI policies
           and practices.

           The HSI special agent worked full time on the operation from its inception. He
           documented his involvement in 33 ROIs. However, he was involved in additional
           investigative activities that he did not document in ROIs. ATF special agents
           wrote the majority of the ROIs, which the HSI special agent could not access.
           Not producing two different reports of the same investigative activity is a typical
           law enforcement practice. Producing differing reports of the same activity could
           cause problems with the pretrial discovery process. Accordingly, some of the
           special agent’s activities were documented in ATF ROIs. We do not have access
           to those ATF ROIs and can only review the special agent’s 33 ROIs to understand
           his activities on the operation. The 33 ROIs and our interviews with the HSI
           special agent indicate involvement in:
               • Deconflicting cases;
               • Coordinating with CBP to stop weapons from crossing the border;
               • Monitoring Title III wiretaps;
               • Conducting physical surveillance;
               • Questioning suspects;
               • Obtaining border crossing records;
               • Arresting suspects once the indictment was issued; and
               • Attending some team meetings.

           These activities provided him with awareness of the case methodology, as well
           as the volume and types of suspect weapon purchases.

           The HSI Special Agent Deconflicted HSI Cases with the Operation Although
           Deconfliction Needs Were Minimal

           The HSI special agent received requests to deconflict HSI investigations with the
           operation. He would have more opportunities to deconflict had the parallel HSI
           investigation of a transportation cell member in Mexico been successful.
           However, as we discuss elsewhere in this report, the investigation terminated
           when the telephone of the suspect stopped transmitting calls and the ability to
           receive information about his activity stopped. Had the investigation continued,

www.oig.dhs.gov                                47                                        OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           the HSI special agent would have served as the deconfliction point for overlap
           between this case and Operation Fast and Furious. Due to the termination of
           that investigation, there were few intersecting cases to deconflict. The majority
           of his deconfliction efforts were to coordinate ATF and CBP activities.

           The HSI Special Agent Coordinated with CBP to Stop Weapons from Crossing
           the Border, but Followed ATF Direction, Which Ignored Investigative Leads

           One of the key duties HSI senior leaders assigned to the HSI special agent was to
           prevent weapons from being smuggled to Mexico when specific information was
           available that the weapons were being transported to the border. The
           interdiction of a known weapons smuggling attempt occurred only once during
           the operation. The HSI special agent coordinated with CBP, which interdicted
           the weapons in the vehicle.

           In February 2010, the HSI special agent helped coordinate the seizure of
           weapons that he believed were being transported to Mexico. He learned that a
           weapon acquired by a straw purchaser was being transported from Tucson
           toward the Mexican border. The HSI special agent contacted nearby ports of
           entry to request an outbound inspection of the suspect vehicle, and he and a
           CBP OFO officer followed the weapon to interdict it. The HSI special agent later
           received information that the weapon was being transported through the
           Tohono O’odham nation, which maintains special gates that allow tribal
           members to cross the border into and out of Mexico. OBP monitors the gates.
           Accordingly, he coordinated with OBP to stop the vehicle.

           OBP stopped the vehicle in the Tohono O’odham nation and searched it. OBP
           seized 40 AK-47 style firearms, 1 A/R style firearm, and 43 magazines from the
           vehicle. Tucson ATF agents were interviewing the suspects already when the HSI
           special agent and the CBP OFO officer arrived at the scene. One of the suspects
           admitted to having transported weapons across the border five or six times
           previously. The HSI special agent did not question the suspects. He was not
           comfortable speaking up or attempting to flip these suspects because ATF was
           already at the scene conducting interviews.

           ATF and the HSI special agent did not arrest the suspects because they were
           deemed too far from the gate to charge them with a weapons smuggling
           violation. ATF did not try to flip the suspects or get them to cooperate, which
           was a mistake, according to three HSI staff members. It also would have been
           possible to place a recording device on the suspects to obtain incriminating
           information from co-conspirators within the transportation cell.

www.oig.dhs.gov                                48                                       OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           The decision not to pursue available investigative leads resulting from this
           seizure resulted in missed opportunities to identify co-conspirators and the
           transportation cell that was smuggling weapons to Mexico.

           The HSI Special Agent Monitored Title III Wiretaps and Was Required to Vet
           Actionable Information through ATF

           The HSI special agent was aware that the same straw purchasers were making,
           or at least intending, to make repeated purchases of weapons.

           In March 2010, a consensually monitored recorded call captured a conversation
           between a cooperating FFL staff member and one of the suspected straw
           purchasers. The two discussed a prospective sale of firearms. During the
           conversation, the FFL staff member said to the suspect that he had been a good
           customer given that he already had purchased so many weapons. The suspect
           said that he wanted to purchase multiple AK-47 style firearms, and he inquired
           about the cost of two additional firearms that were available for purchase.
           Further, he said that a friend was also interested in purchasing weapons.

           ATF did not authorize the HSI special agent to make independent decisions on
           follow-up investigative activities for wiretap intelligence. Instead, ATF required
           that he listen for actionable intelligence to vet with his ATF counterparts. As a
           result, he could not take unilateral action to pursue identification of the
           suspect’s “friend,” a likely co-conspirator.

           The HSI Special Agent Participated in Physical Surveillance that Was
           Terminated Prematurely

           The HSI special agent participated in visual surveillance of suspected straw
           purchases that ATF terminated prematurely, according to ICE policies and
           practices. He also said that he might have been involved in additional, similar
           surveillance activities. He told us that he could not recall each surveillance
           activity with specificity.

           The HSI special agent said that generally, when the task force surveillance teams
           received advance notice of a suspicious firearms sale, they would establish
           surveillance at the FFL. After the transaction, the team would follow the vehicle
           transporting the suspected straw purchaser and firearms to a residence. The
           surveillance team would lose visual contact when the suspect would park in a



www.oig.dhs.gov                                49                                         OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           garage and close the garage doors. The surveillance team would continue to
           observe the residence until ATF’s lead case agent terminated the surveillance.

           In other specific instances, the task force terminated surveillance without seizing
           weapons or arresting suspects. In May 2010, an ATF agent on the task force
           monitored a series of conversations on a suspected straw purchaser’s telephone.
           She immediately provided the content of the calls to mobile surveillance units
           that were observing that suspect. The HSI special agent participated in one of
           the mobile surveillance units and was privy to the content of the suspect’s calls.
           The first conversation confirmed that an unidentified male wanted to purchase
           15 Draco firearms and 7 AK-47 style firearms from the suspect immediately. The
           suspect then called an FFL and requested to purchase 8 Draco firearms and 7 AK­
           47 style firearms. In a third call, the FFL staff member confirmed the suspect’s
           plans to make additional weapons purchases for the following week.

           After the mobile surveillance unit observed the suspect leave the FFL with what
           appeared to be long gun boxes, there was a fourth intercepted call in which the
           unidentified male and the suspect agreed to meet. The mobile teams
           discontinued surveillance following another call in which the suspect and the
           unidentified male expressed concern that they were being followed.
           Surveillance was discontinued despite knowing that other records indicated that
           the suspect had already made multiple suspicious purchases of weapons in 2010,
           4 of which had already been recovered in Mexico.

           In June 2010, task force members, including the HSI special agent, conducted
           mobile surveillance of a suspected straw purchaser, after receiving advance
           notice about his intent to purchase a .50 caliber firearm from an FFL in Arizona.
           The team established a perimeter around the FFL and observed two men load
           boxes into a truck bed. The team followed the truck once it left the FFL. While
           following, the team lost visual contact of the truck for approximately ten
           minutes. Upon regaining visual contact, the truck bed was empty and
           surveillance was discontinued. The HSI special agent performed a license plate
           query and determined the truck’s owner. The truck owner was indicted in
           January 2011; however, we did not find any evidence of additional attempts by
           the task force to talk with the vehicle’s owner or locate the .50 caliber weapon.

           All of the HSI employees with whom we discussed the issue agreed that under
           ICE policy and practice, ATF should not have terminated surveillance in these
           cases and that ATF was not doing enough to prevent the weapons from being
           smuggled to Mexico. They said that ICE policy was to continue surveillance until
           special agents could seize the contraband. HSI would continue surveillance long

www.oig.dhs.gov                                50                                        OIG-13-49
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           enough to prove that there was intent to move the weapons across the border
           at which point HSI would interdict them and arrest the suspects. HSI might
           attempt to flip the suspects to get information about other members and leaders
           of the criminal organization. However, despite the fact that the OCDETF
           proposal named the HSI special agent as a co-case agent, the ATF manager and
           the ATF co-case agent directed the operation’s investigative activities.

           In Operation Fast and Furious, the HSI special agent learned that indefinite
           surveillance was considered too labor intensive and required too many resources
           given such a large pool of suspected straw purchasers. He never heard of a
           triggering event or threshold at which ATF would start to make seizures.
           Additionally, ATF continued surveillance of the same straw purchasers without
           making any arrests, because ATF intended to issue an indictment of all suspects
           at the same time when the operation concluded.

           Ending the surveillance before seizing the weapons eliminated the task force’s
           ability to prevent criminal organizations from receiving the firearms. In addition,
           it eliminated the ability to identify the transportation cell because the task force
           members were unable to watch the transport of the weapons. This resulted in
           missed opportunities to enforce the weapons smuggling statutes and allowed
           the individuals transporting the weapons to Mexico to avoid criminal charges.

           The HSI Special Agent Participated in Surveillance That Resulted in a Seizure

           In August 2010, the ATF lead case agent received information from an FFL about
           an impending sale of 9 AK-47 style firearms by a suspected straw purchaser. The
           HSI special agent, ATF lead case agent, and other task force members established
           mobile surveillance at the FFL where the sale was expected to occur. The team
           observed the suspect’s vehicle exit the FFL parking lot approximately 30 minutes
           after the surveillance team had arrived. They also observed two additional
           suspects enter the vehicle while it was parked at the FFL. The task force
           members following the vehicle lost sight of it momentarily, but located it
           abandoned at a nearby park. They initiated contact with two male subjects, who
           they located near the abandoned vehicle. Approximately an hour later, the HSI
           special agent and the ATF lead case agent arrived at the scene and interviewed
           the suspects. One admitted that he purchased the firearms that were in the
           abandoned vehicle and he planned to sell them on an online retail website. He
           said that he planned to sell the weapons only to Arizona residents who “are not
           bad people.” He also admitted that he had previously purchased and sold 29
           firearms. ATF seized the firearms from the vehicle, but did not make any arrests.
           The HSI case file did not contain evidence that the task force attempted to flip

www.oig.dhs.gov                                 51                                        OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           the suspects or use other investigative techniques to obtain information from
           them later. The subjects were indicted in January 2011.

           The decision not to pursue investigative leads from this seizure resulted in
           missed opportunities to identify co-conspirators and intelligence that could have
           identified the transportation cell that was smuggling weapons to Mexico.

           The HSI Special Agent Was Not Allowed to Participate in All Internal Meetings
           Thereby Reducing Opportunity for HSI Input on Operational Strategy

           The OCDETF proposal named the HSI special agent as a co-lead for the operation.
           However, he did not lead the case. The ATF co-lead case agent and her chain of
           command would not allow him to make operational decisions. The HSI special
           agent said that the ATF lead case agent would entertain ideas he suggested but
           she often did not solicit his opinion or invite him to strategy meetings.

           Some HSI special agents said that although task forces may name co-leads, in
           practice one of the co-leads actually leads the investigations while the other
           takes orders. They said that, realistically, investigations cannot be led by two
           special agents. Two HSI Arizona employees said the HSI special agent might not
           have been invited to these meetings because the ATF agents may have also
           planned to discuss unrelated ATF cases in which the HSI special agent was not
           involved. Other HSI employees speculated that he was not invited because it
           allowed ATF to maintain control and influence over the investigation.

           The HSI special agent’s ability to modify the ATF methodology and make
           decisions was restricted. Eliminating the HSI special agent’s presence at some of
           these internal meetings reduced or eliminated the possibility of devising case
           strategy that incorporated HSI opinions and methodology. HSI did not achieve
           its objective to place the HSI special agent on the operation to influence the
           course of the investigation.

           The HSI Special Agent Conducted Interviews to Further the Investigation

           The HSI special agent participated in at least three interviews of suspected straw
           purchasers during the course of the investigation. Although the interviews did
           not produce significant actionable information, they indicate efforts to obtain
           substantive intelligence on suspected straw purchasers and co-conspirators, and
           attempts to flip suspects to further the investigation.




www.oig.dhs.gov                                52                                       OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           In May 2010, the HSI special agent assisted in an interview of one of the
           suspected leaders of the smuggling ring at the Lukeville port of entry. The
           interview followed CBP’s seizure of an AK-47-type, high-capacity drum magazine
           loaded with ammunition, 9 cellular telephones, and miscellaneous documents
           from a vehicle that the suspect attempted to drive through the port of entry and
           into Mexico. During the interview, the suspect provided information about the
           activities of an alleged cartel member that he had planned to meet in Mexico.
           The suspect agreed to cooperate with the investigators. The ATF lead case agent
           provided her with contact information, and the suspect agreed to call her when
           he returned from Mexico.

           The ATF lead case agent made the decision to let the suspect go; she did not
           consult the HSI special agent. The suspect did not initiate contact with the ATF
           lead case agent. Records indicate that the team continued surveillance of the
           suspect in July 2010 because he had also become involved in criminal activity
           related to narcotics. Additional criminal charges related to narcotics smuggling
           would have enhanced the potential penalties against the suspected straw
           purchaser.

           In October 2010, the HSI special agent and other members of the task force
           interviewed a suspected straw purchaser regarding his recent weapons
           purchases. The suspected straw purchaser admitted to purchasing 20 AK-47
           style firearms previously. He also said that he typically sold them to another
           male, which yielded profits. Despite these admissions, the suspected straw
           purchaser also said he never bought firearms for re-sale. The ATF lead case
           agent told the suspected straw purchaser that the interview would be forwarded
           to the USAO for consideration for prosecution.

           The HSI Special Agent Obtained Border Crossing Records of Suspects, but They
           Were Not Used to Further the Investigation

           As early as January 24, 2010, the HSI special agent began querying the border
           crossing records of suspected straw purchasers. He obtained border crossing
           records of suspects on at least six occasions throughout the course of the
           investigation. He received assistance from a CBP officer to conduct the border
           crossing checks. The HSI special agent obtained the dates, locations, crossing
           method, license plate numbers of crossing vehicles, and the corresponding
           vehicle registration information of suspected straw purchasers.

           The HSI special agent’s first set of border crossing checks included the records of
           24 persons crossing from Mexico into the United States over the previous 12

www.oig.dhs.gov                                53                                        OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

           months. There were positive responses on six persons. Then, on February 19,
           2010, the HSI special agent and the CBP officer queried the border crossings of
           suspects again. The results of this query revealed that three of the persons
           queried in the first report had continued crossing into the United States from
           Mexico during the interim period. Only one border crossing check returned zero
           border crossings. The HSI special agent’s last request for border crossing checks
           occurred in December 2010.

           HSI special agents would be interested in queries that reveal suspects crossing
           the border often because it could indicate that the suspects could be transferring
           weapons to Mexico. The majority of crossings were made by persons in the
           main target’s immediate family only. The HSI special agent relayed this
           information to ATF but the information, he said, seemed to “fall by the wayside.”
           In its comments to our report, DOJ said that ATF used this information to try to
           further the investigation. However, the HSI special agent said that he thought
           that ATF did not use the information. Apparently, ATF had not informed him of
           the activities that arose from the information.

           The HSI Special Agent and Other HSI Personnel Assisted With Arrests After the
           Indictment Was Issued

           After OBP Agent Terry was shot on December 14, 2010, and Operation Fast and
           Furious suspect weapons were recovered at the murder scene, ATF prioritized
           the arrest of Operation Fast and Furious suspects. Following the indictment of
           20 suspects, 4 search warrants and 17 arrest warrants were issued on January
           25, 2011. Law enforcement agents from HSI Arizona, ATF Phoenix, other Federal
           agencies, and state and local agencies executed the warrants. The HSI special
           agent assisted with the arrests, as did some other HSI Arizona employees. We
           also spoke to one CBP OFO officer who also acknowledged that he participated
           in these arrests. They said that they had not conducted other work on the
           operation and did not have knowledge of the methodology at the time the
           operation was underway.

           HSI Special Agent’s Group Supervisors Attempted to Remove Him from the
           Task Force

           As we discussed, the HSI special agent’s group supervisor and the senior special
           agent argued against placing the special agent on Operation Fast and Furious,
           according to five HSI employees. Both attempted to remove the HSI special
           agent from the task force later. In February 2010, after the HSI special agent
           began working on the operation, his group supervisor attempted to persuade his

www.oig.dhs.gov                                54                                       OIG-13-49
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           ASAC to remove the special agent from the task force. The ASAC declined our
           request for a voluntary interview; however, email messages confirm that the
           group supervisor made the request to the ASAC. The HSI SAC said that he was
           not aware of the group supervisor’s request to remove the HSI special agent.

           In August 2010, the HSI special agent’s group supervisor transferred to another
           position within ICE. The special agent was assigned to a new group supervisor
           and a new ASAC. The new group supervisor was the senior special agent who
           had expertise in weapons smuggling investigations and had interviewed the
           confidential informant with the special agent. The new group supervisor and his
           new ASAC decided to ask more senior HSI leaders to take the HSI special agent
           off Operation Fast and Furious. However, HSI Arizona senior leaders decided not
           to remove the HSI special agent because the investigative activities were almost
           over, and the task force was preparing for indictments.

           In October 2010, ATF requested that the HSI special agent continue working on
           the OCDETF to assist ATF with another weapons smuggling operation that had
           ties to an ongoing HSI investigation. In an October 28, 2010 email message, the
           HSI special agent’s group supervisor told his ASAC that he did not want to lose
           staff to ATF again, and that he thought that the HSI special agent was not the
           right person to monitor ATF and ensure HSI priorities were taken into account.
           The group supervisor and ASAC decided not to have the HSI special agent
           continue with the OCDETF after Operation Fast and Furious concluded.

           The HSI special agent’s group supervisors had initially argued against joining the
           Operation Fast and Furious task force. Later, they argued to remove the sole HSI
           special agent on the task force, but were unable to persuade HSI Arizona senior
           leaders. The group supervisors’ chain of command in HSI Arizona are responsible
           for the decisions not only to participate but also to maintain participation,
           despite the group supervisors’ arguments to the contrary. To his credit, the HSI
           SAC told us that he was responsible for any negative outcomes from HSI
           participation on the task force.

           The HSI Special Agent’s Group Supervisors Provided Minimal Guidance, and the
           HSI Special Agent Relied on ATF Guidance

           During his assignment to Operation Fast and Furious, the HSI special agent
           received little guidance from his chain of command. His group supervisor
           initially instructed the HSI special agent to notify him if he was aware of firearms
           moving into Mexico. However, the HSI special agent engaged in only passing



www.oig.dhs.gov                                 55                                        OIG-13-49
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           conversations with his group supervisors about the case sporadically throughout
           the duration of the operation.

           Both of the HSI special agent’s group supervisors distanced themselves from the
           case when more senior management overrode their arguments not to
           participate on the task force and rejected requests to remove the HSI special
           agent from it. They believed that participating in it was wrong, and they did not
           want to be involved with it. In avoiding the case, they also distanced themselves
           from the HSI special agent assigned to it.

           The HSI special agent’s first group supervisor felt that his chain of command
           found his complaints and concerns about ATF and the operation obstructive, and
           that raising more issues would damage his credibility with them. After his ASAC
           denied his request to remove the HSI special agent, the group supervisor
           stopped raising concerns. The better course of action would have been to advise
           the HSI special agent and continue raising the activities that violated ICE policy to
           management. However, doing so may have had an adverse affect on HSI Arizona
           management’s assessment of him. His predicament was difficult, and his
           reasons for distancing himself from the case were understandable.

           The HSI special agent’s second group supervisor replaced the first in August
           2010, when the operation’s investigative activities were coming to a close. He
           had argued against participating in the operation and had tried to get permission
           to remove the HSI special agent from the task force. When senior leaders
           rejected his request, he also distanced himself from the case to the extent that
           he could. Again, it would have been better if he had mentored the HSI special
           agent and notified his chain of command of instances when the activities
           violated ICE policy. However, the new group supervisor’s reasons for retreating
           are understandable.

           The HSI special agent said that he knew that HSI did not approve of the
           methodology ATF employed, but HSI also placed him on the task force to “get
           along” with ATF. The HSI special agent realized that if he advocated for changes
           to the methodology, ATF would have perceived it as his failure to “get along.” It
           was also important for him to cooperate with ATF so he still would be allowed to
           participate and receive information about the operation, which he could share
           with HSI.

           The HSI special agent’s two group supervisors did not provide much guidance or
           request information regarding the status of the operation. Throughout the
           duration of the operation, the HSI special agent requested approval of ROIs that

www.oig.dhs.gov                                 56                                        OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           discuss operational developments. However, his group supervisors did not
           provide substantive guidance, ask follow up questions regarding the ROIs’
           questionable content, or intervene after receiving the ROIs. Occasionally, his
           group supervisors returned an ROI back to him to correct format, grammar, or
           spelling errors. Usually his group supervisors signed the ROIs quickly, which
           indicated that they had reviewed and approved the content.

           The HSI group supervisors’ chain of command did not read the ROIs, inquire
           about the HSI special agent’s activities, or attempt to guide the operation. As a
           result, HSI did not meet its stated goal to monitor the case or improve the
           investigative methodology.

           Because of the HSI special agent’s limited experience and his chain of
           command’s overall indifference toward the execution of the operation, he relied
           on direction from the ATF lead case agent and the ATF chain of command,
           instead. He could not change the operation’s methodology by himself. As a new
           investigator and a new HSI employee, he was less familiar with HSI investigative
           practices than other more experienced staff. He had received HSI training
           related to contraband smuggling techniques and policies. However, he did not
           have the investigative experience to speak with authority, and the ATF lead case
           agent and her chain of command did not allow him a decision-making role. As a
           result, the task force continued to use the same investigative methodology; it did
           not follow all viable investigative leads; and suspected straw purchasers
           continued to buy weapons that were transported to criminal organizations.

           HSI SAC offices send regular reports of significant cases to HSI headquarters, and
           the HSI SAC Phoenix included short summaries of Operation Fast and Furious in
           its reports. However, the case summaries for Operation Fast and Furious did not
           discuss methodology or other substantive details. As a result, HSI headquarters
           did not have information about the methodology used during Operation Fast and
           Furious. Without knowledge of the problems, HSI and ICE headquarters did not
           consult with DOJ to improve the operation. HSI and ICE headquarters officials
           did not learn about the methodology used in Operation Fast and Furious until
           after OBP Agent Terry’s murder.


           Conclusion

           The placement of the HSI special agent on Operation Fast and Furious reflects
           the HSI SAC’s desire to accommodate ATF. However, the HSI SAC should have
           communicated with his staff to monitor the HSI special agent’s activities and

www.oig.dhs.gov                                57                                        OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           ensure that the operation identified smuggling activities and violations. The HSI
           SAC also should have directed the HSI special agent’s chain of command to
           communicate with the HSI special agent and ATF task force management. It was
           the HSI SAC’s decision to approve the placement of a special agent on the task
           force, and we agree with him: he bears the responsibility for the HSI special
           agent’s participation in activities that violate ICE policy and procedure.

           The HSI special agent’s first group supervisor should have monitored the HSI
           special agent and reported up the chain of command each time he was asked to
           engage in activity that violated ICE policy. However, we understand that the
           group supervisor interpreted management’s statements and actions as a desire
           to place him on the task force regardless of the operation’s methodology. The
           group supervisor’s effort to remove the HSI special agent from the task force was
           commendable. Because of what he saw as a diminution in senior leaders regard
           for his professionalism, he did not attempt to make changes to the HSI special
           agent’s activities or the ATF methodology. He also did not attempt to persuade
           his management to make other changes to HSI participation on the operation
           again. His actions were appropriate, given the situation.

           The HSI special agent’s second group supervisor’s actions also were appropriate.
           The HSI special agent’s investigative activities on the operation ended shortly
           after the second group supervisor gained his position. The second group
           supervisor reported his concerns about the operation to his new ASAC. He and
           his ASAC attempted to remove the HSI special agent from the operation, but
           their suggestions were refused

           Recommendation #2:

           We recommend that the Director of ICE determine whether the HSI SAC office’s
           management of Operation Fast and Furious, which allowed an HSI special agent
           to participate in investigative activities that violated ICE policy and practice,
           adhered to ICE standards for its senior leaders.


           ICE Released Policy That Should Prevent Similar Problems in the Future

           In 2009 and 2010, ICE had not developed policy to guide field office SACs when
           they experienced serious concerns with other agencies. However, ICE
           recognized the gap after it learned more about Operation Fast and Furious. It
           published a new policy, Accountability Requirements for Enforcement Operations
           Involving Contraband and Other Sensitive Items, on February 21, 2012. The new

www.oig.dhs.gov                                58                                       OIG-13-49
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           policy provides direction to SACs when their staff work on interagency task
           forces and become aware of decisions that contravene ICE policy. Specifically,
           the policy states:

                  HSI routinely participates in joint or multi-agency investigations
                  led by other law enforcement agencies and are subject to external
                  agencies’ operation decisions. If these decisions conflict with HSI
                  policies and procedures, the HSI Special Agent in Charge (SAC)
                  must be immediately notified. The SAC in turn will contact his/her
                  counterpart advising of the conflict and potential for withdrawing
                  HSI resources. The SAC will then notify HSI Headquarters… HSI
                  Headquarters will determine any further appropriate response,
                  including whether continued participation in the joint
                  investigation should be curtailed.

           The policy also restates other ICE policy not “to allow or facilitate uncontrolled
           cross-border movement of any dangerous contraband, including firearms…”

           The policy should prevent similar circumstances from developing in the future;
           however, there are two areas of vulnerability. To be effective, ICE and HSI
           headquarters officials must support the policy and the HSI field office staff that
           encounter the types of problems addressed by the policy. In 2008 and early
           2009, HSI Arizona staff had notified HSI headquarters officials that ATF was
           allowing firearms to be smuggled to Mexico. HSI headquarters officials
           dismissed the field’s concerns quickly and assumed that the ICE/ATF MOU would
           resolve any conflicts. Yet, the ICE/ATF MOU and the ICE Director’s message put
           the responsibility for conflict resolution on the field office. The HSI SAC had tried
           to influence ATF, but could not and should not have been expected to change
           ATF policies. HSI and ICE headquarters officials should have engaged on the
           issues in Arizona more intensively. In the future, ICE and HSI headquarters
           officials should continue to monitor the relationship between ATF and HSI
           Arizona field offices and engage with ATF headquarters if ICE is impeded from
           enforcing the statutes for which it has authority.

           To be effective, the new policy also should directly address the ICE/ATF MOU
           clause that establishes an expectation for ICE field offices to be able to resolve
           conflicts without headquarters assistance. Our jurisdiction is limited to DHS
           entities, and we cannot judge ATF’s actions. However, given the level of concern
           we noted during this review and the DOJ OIG’s report of ATF’s performance in
           Operation Fast and Furious, we conclude that ICE and HSI headquarters officials



www.oig.dhs.gov                                 59                                         OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           should have been more involved in resolving issues between HSI and ATF, at
           least between the HSI and ATF Arizona field offices.

           Recommendation #3:

           We recommend that the Director of ICE enhance ICE policy, Accountability
           Requirements for Enforcement Operations Involving Contraband and Other
           Sensitive Items, to ensure that the language in the ICE/ATF MOU does not
           continue to foster an expectation that HSI SACs resolve all conflicts with ATF in
           the field. The language of the policy should be modified to state that the duty to
           report conflicts covered by the policy overrides the ICE/ATF MOU language,
           which may seem to place the responsibility on SACs to resolve all conflicts at the
           field level.


           CBP Had Minimal Involvement in the ATF Investigation and OCDETF
           Operation Fast and Furious and Was Not Aware of the Flawed
           Investigative Methodology

           CBP Arizona officials in OFO and OBP were not aware of the investigative
           methodology employed in Operation Fast and Furious. The OFO Assistant Port
           Director said that what he knows he learned from the media. He said the
           operation was a “betrayal” and posed a risk for his staff. Likewise, the Deputy
           Chief Patrol Agent with whom we spoke said that it is quite “disturbing” that
           OBP was not aware of the operation when it was underway.

           Neither organization participated in the operation’s task force. Their staff
           occasionally interacted with Operation Fast and Furious task force members, or
           provided minimal support, but were not involved in investigative techniques that
           allowed weapons to be lost and ultimately to be smuggled into Mexico. When
           OFO and OBP leaders learned about the huge number of weapons that were
           allowed to travel through their areas of responsibility, they were angry. The
           operation left their staff and the public vulnerable, and OBP felt the effect when
           its agent, Brian Terry, was murdered and weapons lost by the operation were
           discovered at the scene, dropped by the criminals who killed him.

           We discuss OFO and OBP involvement with the operation briefly in the sections
           above that describe the HSI special agent’s activities on the operation. OFO
           provided border crossing information to the HSI special agent, who had
           requested the data. OFO commonly provides border crossing information to
           other agencies, and there was nothing unusual about the request that would

www.oig.dhs.gov                                60                                       OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           have alerted CBP to the flawed investigative methodology. The names of the
           individuals whose border crossing records were checked did not have any
           significance to the OFO officer who provided the records.

           An OFO officer also assisted the HSI special agent on the operation to navigate
           the roads of southern Arizona when the HSI special agent pursued the weapon,
           which was being transported toward the Mexican border. The OFO officer
           observed the investigative activity in the Tohono O’odham nation, but had no
           reason to develop concerns. OBP agents responded to his request to stop the
           vehicle that drove onto the Tohono O’odham nation. OBP stopped the vehicle
           and seized the weapons that were in it. The operation appeared to run normally
           and according to the MOU’s mandate that OBP assist HSI when requested.

           OFO officers stopped a vehicle attempting to cross the Lukeville, Arizona, port of
           entry into Mexico. OBP assigned an agent to assist OFO at the Lukeville port of
           entry. The OBP agent assisted with processing information from the stop. OFO
           officers discovered ammunition during their inspection of the vehicle. OFO did
           not attend the interview of the vehicle’s occupants and did not have reason to
           be concerned about the investigative activity.

           Conclusion

           The activities that brought CBP employees in contact with Operation Fast and
           Furious did not provide them with an understanding of the methodological
           problems. The employees conducted their work according to routine
           operational procedures.


           Management Comments and OIG Analysis

           We evaluated technical comments from ICE and DOJ. We have made changes to
           the report where appropriate. We also analyzed formal comments from ICE
           regarding our recommendations. We provide the formal comments and our
           analysis below. Additionally, ICE formal comments, in their entirety, appear in
           appendix B.




www.oig.dhs.gov                                61                                       OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           Recommendation # 1:

           We recommend that the Director of ICE assess whether HSI Arizona senior
           leaders fulfilled their duty to enforce the weapons smuggling statutes for which
           DHS maintains jurisdiction.

           ICE Response: ICE concurred with Recommendation 1. “ICE concurs with the
           recommendation that it must assess whether its HSI Phoenix senior leaders
           fulfilled their duty to enforce the weapons smuggling statutes of the United
           States for which DHS maintains jurisdiction. ICE will review its past practice and
           make determinations where modifications are required.”

           OIG Analysis: This recommendation will remain resolved and open pending our
           receipt of ICE’s determination of whether HSI Arizona senior leaders fulfilled
           their duty to enforce the weapons smuggling statutes for which DHS maintains
           jurisdiction.


           Recommendation #2:

           We recommend that the Director of ICE determine whether the HSI SAC office’s
           management of Operation Fast and Furious, which allowed an HSI special agent
           to participate in investigative activities that violated ICE policy and practice,
           adhered to ICE standards for its senior leaders.

           ICE Response: ICE concurred with Recommendation 2. “ICE concurs with the
           recommendation that it assess whether the HSI SAC office's management of
           Operation Fast and Furious, which is alleged to have allowed an HSI special agent
           to participate in investigative activities that violated ICE policy and practice,
           adhered to ICE standards for its senior leaders. ICE will review its policies and
           practices and will conduct refresher training as needed.”

           OIG Analysis: This recommendation will remain resolved and open pending our
           receipt of ICE’s assessment of the HSI SAC’s management of Operation Fast and
           Furious and report of any corrective actions taken.


           Recommendation #3:

           We recommend that the Director of ICE enhance ICE policy, Accountability
           Requirements for Enforcement Operations Involving Contraband and Other

www.oig.dhs.gov                                62                                        OIG-13-49
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           Sensitive Items, to ensure that the language in the ICE/ATF MOU does not
           continue to foster an expectation that HSI SACs resolve all conflicts with ATF in
           the field. The language of the policy should be modified to state that the duty to
           report conflicts covered by the policy overrides the ICE/ATF MOU language,
           which may seem to place the responsibility on SACs to resolve all conflicts at the
           field level.

           ICE Response: ICE concurred with Recommendation 3.
           “ICE concurs with the recommendation that the agency review the
           aforementioned policy to determine where such changes could be made. This
           policy will remain Law Enforcement Sensitive and will not be made available to
           the public.”

           OIG Analysis: This recommendation will remain resolved and open pending our
           receipt of the enhanced ICE policy.




www.oig.dhs.gov                                63                                       OIG-13-49
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   In February 2012, Representative Michael T. McCaul asked that we review the extent to
   which DHS and its components were involved in OCDETF Operation Fast and Furious.
   Our objectives were to determine DHS involvement in planning and implementing
   Operation Fast and Furious, and the extent to which the Department complied with DHS
   policies and procedures for weapons smuggling investigations.

   We conducted our fieldwork between April and December 2012. During that time, we
   conducted interviews of 41 officials within DHS, ICE, and CBP, and one interview of a
   state and local law enforcement officer who was familiar with the operation.
   Specifically, we interviewed 3 officials from DHS headquarters offices, including
   Secretary Napolitano, 11 ICE officials from various ICE and HSI headquarters offices,
   including Director Morton, and 25 ICE staff members who worked in the HSI Arizona
   field offices and the Hermosillo Assistant Attaché’s office during the course of the
   operation. We interviewed three CBP officials in Arizona.

   We reviewed applicable laws, regulations, memoranda of understanding, and policies
   related to preventing, detecting, and investigating international weapons smuggling.
   We also reviewed ICE internal interim reports, ROIs, OCDETF proposal materials related
   to Operation Fast and Furious, and documents related to the internal ICE assessment of
   Operation Fast and Furious. We also reviewed email messages sent to or received from
   DHS personnel that DOJ OIG collected during its review of Operation Fast and Furious.

   We obtained copies of hundreds of thousands of email messages, which we searched
   for relevancy. Among those were the email accounts of eight employees in HSI Arizona
   offices for the period of September 1, 2009 through June 30, 2011. Using a list of 44
   search terms, we retrieved messages related to the scope of our review. Similarly, we
   retrieved the email accounts of five officials in ICE headquarters for the period of
   January 1, 2009 to April 31, 2011. We used 32 search strings with 196 search terms to
   collect all relevant messages. We also read all messages sent and received between
   certain DHS or DOJ employees during four key date ranges within that same period.



www.oig.dhs.gov                               64                                      OIG-13-49
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security

   We plan to conduct a third search of email messages from the accounts of two officials
   within DHS headquarters. We will limit the search to email messages sent and received
   between January 1, 2009 and April 31, 2011. Due to time constraints, we were unable
   to initiate these searches prior to our report’s publication. If the documents produce
   additional information relevant to our findings, we will issue an addendum to this
   report.

   Given that Operation Fast and Furious was conducted in a task force environment, we
   also provided a copy of our draft report to DOJ for comment.

   We conducted this review under the authority of the Inspector General Act of 1978, as
   amended, and according to the Quality Standards for Inspections issued by the Council
   of the Inspectors General on Integrity and Efficiency.




www.oig.dhs.gov                              65                                      OIG-13-49
                                        OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security

   Appendix B
   Management Comments to the Draft Report


                                                                                        u.s  Oc: parhn,mt gf lIor...,lwld s..cunty
                                                                                        ~ oo 12 SUter, sw
                                                                                        WIIsh ln81"" IX' :!O~~6


                                                                                        u.s. Immi gration
                                                                                         and C usto ms
                                                                                         Enforcem ent

                                                             January 17.2013


                  ~ I EMORANDill.1    FOR:


                  FRm l:
                                                  ACling Exec ·...,· ·-..;;s~sociate Director. Management and
                                                  Administrntion

                  S BlEeT:                        Draft Report substantive commcn ts for OIG Projcct No. 12-126:
                                                  "Of·IS In\'o!vcmcnl in OCDETF Opcmlion Fnst lind Furious" -
                                                  For OffiCUlI Use Onl)'

                  U. S. lmmigration llnd Customs Enforcemcnl (ICE) npprcciatcs Ule opportunity to provide
                  substantive com ments on OIG's Drnft Report 011 "OilS involvement i ll OC DE 'I1~ Operation Fast
                  nnd Furious. "


                  If you have nny questions. please contact l\lichael t>.loy. O IG Portfolio r>. lanager. at 202-732·
                  6263 .




                  Attachment




                                                                                                             wwwlcep.ov




www.oig.dhs.gov                                                    66                                                                OIG-13-49
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security



                  Substantive comments for OIG Draft Report on the Bureau of Alcohol, Tobacco, firearms and
                  Explosives (ATfHed Operation fast& Furious

                  U.S Immig ration and Customs Enforcement (ICE) concurs WIth the three recommendations, set rorth by
                  the U.S Departrnentof Homeland Security's Office of Inspector General (OIG) In Part Two of the Draft
                  Report on DHS Involvement In the Orgamzed Crime Drug Enforcement Task Force (OCDETF) Operation
                  Fastand Funous (the Report)


                  Recommendation 1: Assess whether HSIArlzona senior leaders fulfilled their duty to
                  enforce the weapons smuggling statutes for which DHS maintains jurisdiction.

                  ICE concurs wrth the recommendation that It must assess whether ItS HSI PhoeniX senior leaders fulfilled
                  their duty to enforce the weapons smuggling statutes of the United Stales for which OHS maintains
                  jurisdiction. ICE wilt review its past practice and make determinations where modifICations are required.

                  Recommendation 2: Determine whether the HSI SAC office's management of Operation Fast
                  and Furious, which allowed an HSlspecial agent to participate In Investigative activities that
                  violated ICE policy and practice,adhered to ICE standards for its senior leaders.

                  ICE concurs with the recommendation that it assess whether the H51 SAC office's management of
                  Operation Fast and FunDus, which is alleged to have allowed an HSI special agent to participate in
                  irrvestlgabve acwlties that .....olated ICE policy and practice, adhered to ICE standards for ItS senior
                  leaders ICE WIll r6V1ew its pol icies and practices and WItt conduct refresher training as needed .

                  Recommendation 3: Enhance ICE Policy "Accountability Requirements for Enforcement
                  Operations Involving Contraband and other Sensftive Items" to ensure that the language in the
                  ICElATF MOU does not continue to foster an expectation that ICE SACs resolve all conflicts with
                  ATF in the field. The language of the policy should be modified to stale that the duty to report
                  conflicts covered by the polley overrldos the ICEIATF MOU language, which may seem to place
                  the responsibility on SACs to resolve all conflicts at the field level.

                  ICE concurs with the recommendation that the agency review the aforementioned polICY to determine
                  where such changes could be made




www.oig.dhs.gov                                                      67                                                       OIG-13-49
                                      OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security

   Appendix C
   ICE/ATF Memorandum of Understanding



                                            f>IFM Q R AND(j M Qf (jNPERSTAN Ql NQ

                                                             Between
                                            US. Immigration and Customs Enforcement
                                                              and the
                                        Bureau of A1cohol. Tobacco. Fireanns and Explos ives

                   I. Scone und l)uO?ose

                   111;s l...lemorandum of Understanding (MOU) is intended to fornlalize a partnership to
                   promote effective. coordinated and collective law enforcement efforts both nationally and
                   internationall y between the Bureau of Alcoho l. Tobacco. Fircamls and Explosives
                   ("All;" or "Agency") and U.S. Immigration and Customs Enforcement ("ICE" or
                  "Ageney"Xco Ucctivcly rcfcrrcd to as "Agencies") by the collaborativc use of both
                  Ag,,-ncics' invcsti gative authorities. By working as partners, ATF and ICE will continue
                  to be success ful in the light against those l>ersons and criminal organizatio ns invo lved in
                  violent crime. ' n i C following sections articulate the proC(;dur~ to be followed by both
                  Agencies in accord with the authorities veslcd in tlletn by Congress. Our mutu.1 1 goal is to
                  keep the public and tile United St:ttes safe by using those too ls given to both Agencies
                  either through statute or regulation and which arc viu l to tlle effective control of tlle
                  domestic and international trafficking o ffU'Carms. ammuni tion. c.xptosives. weapons and
                  munitions. To more cffectively uti lize Federa l investigativc reso urces .. TF and ICE arc
                  committed to enforcing the statutes and regulations within eaeh agency's juriSdictio n
                  while 311he same lime working in partn ership and in support of each other. In those
                  situations where the Ag",-neics' respective mission efforts coincide, this r..·IOU will serve
                  to coordinate how both will pursue their in\'estigations cooperatively to optimize the use
                  of resources ilnd minimize duplication of efforts.

                  Title 28. United Slates Code. § 599A establishcs An : 3 5 an agency within Ihe
                  Department of Justice (DOJ). ATF's investigative jurisdiction is quite broad and
                  includes thl,; <ldministr.. tion lind enforcement of fi reamls lind explosives laws and
                  regulations, to include investigating Federal crimes in\'olving the possession. licensing.
                  transporting. sale and receipt of fireamlS. explosives and .. mmunition in interstate o r
                  foreign commerce.

                  ICE was crc..ted purs lt.1nt to the Homeland Sccurit)' Act of 2002 1• Pub. l.. to. 107-2%,
                   116 StOll. 2135 (2003). which transferred to tlte Agency the investigative authorities of the
                  U.S. Customs S(''l'Vice and tile Immigration & Naturali 7..il lion Service. Numerous provisions
                  throughout the U.S. Code either t.'Xprcssly or implicitl y authorize ICE to
                  enforce export laws. including those reb ted to export o ffirearms and explosives.




                  I Rererences 10 the Homeland Secun ty Act of'2002 lI1eJude the associate.:! Department or HomelAnd
                  Seam!}' Reorgaru2lltlOn Plan or Novernber 2S, 2002, and the ReorgalllZRhon Plal\ Morufi mbon for the
                  Ikparbnent or Homeland &elmty of January 30, 2003.




www.oig.dhs.gov                                                      68                                                  OIG-13-49
                                   OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




                  '111e authorities and statutes upon which ATF and ICE exercise jurisdiction arc contained
                  in Annex One to Ulis agrc",ncnL which is full y incorporated by referem:e here in,

                  '11lis 1\10U supersedes boUt the "Memorandum of Agreement and Investigati vc
                  Guidel incs. Customs and BATF." signed May 15. 1978. and the "l\ le mo randum o f
                  Understanding Between thc Bureau of N eohol, Tobacco and Firearms and the
                  Immigration and Naturaliz.1tion Service Regarding the Anti-Drug Abuse Act of 1988."
                  signed August 23. 1989 and September 7. 1989.

                     II. Int elli gence and Information Shari ng

                     A. ICE shal\ report to the appropriate ATF fi eld office in a timely manner any
                        inte llig(.'t1ce received relating to attempted or planned violations of Federal
                        fircanllS and explosives laws/regulations within the investigative j urisdiction of
                        ATF. including fireann s and c;'l:plosivcs trafficking. and violations of laws or
                        regulations by Federal Fire.l nns Licensees (FFLs) andlor Federal Expl os ive
                        Licensees and Permitees (FELs). violations of Section 38 of the Anns Export
                        Control Act and 27 CFR P:1I1 447. and infomlation received from or about FFLs
                        or FELs. ICE will infonn tile recipient of any restrictions on the use of th e
                        intelligence.

                     B. ATF shall report to the appropriate ICE fie ld offi ce in a time ly n13nncr any
                        inte ll igence rel..'eived relating to the illegal e.xportation. allempted exportation. or
                        planned exportatio n of any item on the United States Munitions Li st. including
                        c.xport transactions by FFLs and FELs 10 non· licensces. ATF will inform the
                        recipient of any restrictions on Ule usc of the inte lligence.

                    C. ICE agrees eTrace is the prefe rred method for trac ing fircamls. howcvl.." ICE
                       l>crsOlUl CI ma y contlet ATF at the local level when nccessary. Based 0 11 the
                       Agencies' arrangement set forth in the l\ lenlorandum of Understanding Regardin g
                       die eTr:lcc lnlcmct Based Firc.1fm Tracing AppliC:ltion. cffe<.:li ve tvL1rch 24. 2006.
                       A1FIICE "eTrace 1\100" (Annex Two). ICE <Ig.rees to cont<lct ATF prior to
                       initiati on of any independent fi reamls investigation based on fi rcann tracing
                       da ta/intelli gence obt<lined via eTrace.

                     D. Infollllation concerning the registration status ofi\lational Fireanns Act. 26 U.S.C.
                        Chapler S3 (NFA) wea pons shall be open 10 inspection by. or disclosure to. olIicers
                        and employea! of a Federal agenc)', including ICE. whose ollieial duti es requ ire
                        such inspec tion or disclosure. »ursu.lnt to 26. U.S.C. § 6 103. no disclosure of
                        regis tration status may be made to Stale or loca l ollicia ls unless they have been
                        deputized by the United States f\.1:II"Shals Service. ICE. as we ll as any agency
                        receiving l\ffA infomlation from ICE. must agree to appropriately safeguard s uch
                        information as spec ified in 26 U.S.C. § 6 103.




                                                                2




www.oig.dhs.gov                                                 69                                                   OIG-13-49
                                        OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security




                        E. Wl1en the recipient of inlelligence is apprised of an ongoing invesligation by the
                           Agent:y reporting the intelligence, Ihe recipient will lake 3ppropriale steps 10
                           ensure thallhc usc of such i.ntcllig""llce does nOljcopardizc the invcstigalion.

                       1lI.      Qeneml Inye"'i eoljye (ll! jde!jne<;

                       A. '111e Agencies recognize the inherenl and shared responsibility to operale
                           collaborative!y in order to ensure the mutua! success of the activities of both
                            Agencies in support of the nalion's security. '111 is r-.. IOU is nol intended 10 confer
                           or grant authority to either Agency. but ralher the purpose ofi hc ~'IOU is 10
                           slrCngthen the p3rtncrship bctWC(,l1 the Agencies.

                       B. For purposes of this 1\ IOU, "investigation" me.1ns a documenled systemalic
                          inquiry or CX3min31ion into a11egation.<; of l.... imina! violations with intent to
                          prosecute those identified, 111 is sh311 not include investigations deemed by each
                          Ag'''llcy to be inlernal in nalure .

                       C. During an investigation it may become apparent to the initiating Agency thai
                           ATF and ICE have a shared interest \\i th respect to the case or parts thereof. The
                           Agencies agrce to coordinate all pertinent and necessary information concerning
                           fircamlS/explosives investigations implicating bou, ATF's and ICE's authori lies. Z
                           In furtherance of onicer and public safety. the initiating Agency will makc cvcry
                           cffort for d,,'COnniction to occur. particularly when there is any indication Ulat thc
                           investigation might coincide wilh Ihe other Agency's concurrent clforts. T he
                           deeonniction should occur at th e local level and in a timely manner to avoid
                           oonfusion and improve coordination betwcen U1C 3gcncies.

                                 I , Upon eslablishing Ulal lircamls and/or explosives-related violations have
                                     been iden tified during an ICE in\'estigation. ICE Hcld offices will notify
                                     and invite participation by Ule appropriate ATF field oOice(s) prior 10
                                     further invcstigative action .

                                2. Upon establishing Ulal cusloms or illunigration violations have been
                                   identified during an ATF investigation. ATF field offi ces will notify and
                                   invite participation by U1C appropriate ICE field offi cc(s) prior to furth "...
                                   investigative action.

                       D. If an Agency declines to participate in 3n investigation , the investigation will
                          continue by the initiating Agency at its own discretion. wiUlin UI31 Agency's
                          appropriatejurisd iction and wilh Ihe full cooperation of the other Agency. The
                          Agencies agree Ulal a declination to pal1icipale in a particular investigation under
                          th e terms o f this r-.. IOU will be communicated to the oUler Agency as soon as
                          possible and at the appropriatc field level.

                  ) For eXllIl1p1o:!. no mailer wlueh agl!ncy IS ill\'esbgatlllg. ICE and ATF ",,11 work together 10 ensure
                  sllccessful Fedcml prosecution if a case has elementi refjIQrulg proof of alienage or proof of the 1111er.>(atc
                  ncxu:sofa firearm.

                                                                         3




www.oig.dhs.gov                                                          70                                                         OIG-13-49
                                      OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security




                        E. Forfeiture proceeds derived from joint investigations will be handled in
                           accordance WiUl rules and procedures governing the lead Agency in the
                           correspond ing investigation. Asset sharing requests will be considered in c.1ch
                           jo int investigat ion where there is substantive p:nticipat ion by the OUlcr Agency.

                         F. At the completion of a joint invest igation , if appropriate, the matter will be
                            referred to the United States Attorney for a detcnnination as to which violation(s).
                            if any, should be prosecuted . Case rep011s and the infonnation contained therein
                            lI1ay not be disclosed. except as required by law. or by policies al)proved by the
                            Attorney General or thc Secretary of I Jomcland Security to any third party
                            without UI Cprior consent of the ori ginatin g Agency.

                        G. Notification as described in this section shall not alter ei ther Agency's interna l
                           reporting requi rements.

                  rv.    Specifi c Investigative Guide lines

                        A Recognizing that the regulation and inspection of the fi reanns industry is within
                          the so le purview of ATf'. ICE must coordinate all activities invo lving FFL.s. FELs
                          and gun shows with the loca l ATF office and invite ATF to particip.1te. "111is
                          includ es, but is not limited to. the gathering or reviewing of or Obtaining
                          infonnation contained in records rela ting to :my fire:lnns or exp losives
                          tr:msactions by FFLs lind FELs as well as conducting outrc.1ch activities. If ATF
                          declines or calmot acconunodate the request within a reasonable time, ICE ma y
                          proceed without funh er coordination.

                        B. Recogni zing that all invCCltigative activi ties at the Pons of En try. borders and their
                           fun ctional equiva lent must be coordinated through ICE, ATF will notify and
                           coordinate with Ule local ICE fie ld offi ee when it is anticipated that an investigation
                           will have an lCE- related violation. Further, if during the course of
                           an investigation. ATF anticipates the need for ass istance in conducting
                           inspections, detentions. or seizures of interna ti onal shipments, ATF will notify Ule
                           loc.1 l ICE office and invite ICE to p:ln ieipate. I f ICE declines or cannot
                           accommodate the request wiUlin a reasonable IX-TIod of time, ATF may proceed
                           without further coordina lion.

                  y   SQ!!n;C;S o Oufo rlDO'j o u

                        A. In Ule event either an ATF or ICE special agent introduces their confidential
                           infomlant (Cl) to the other Agency during ajoint investigation. the Agency which
                           introduced the CI will maintain control of that CI for the duration of that specific
                           joint investigation and will follow its departmental procedures for handling C is.

                        B. Duplicatiyc and excessive rewards to infOlmants will be avoided. In joint
                           investi gations. every effort should be made for ATF and ICE to agree on th e




www.oig.dhs.gov                                                  71                                                    OIG-13-49
                                     OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




                           payment of a sIngle reward Regardless of whIch Agency fumishes the funds.. the
                           Agency responsible for the mfonnant will have: the right to make payment if
                           deslTl~d. No rewards wll1 be offered or paid to an FR.. FEL or theIr employee(s)
                           for mfonnallon conl:Hned m records requlIed to be maintained under Federal
                           firea nns and explosIves Inws and regulations.

                       C. ICE Will not authorize any FFL andior FEL or theIr (,'mploycc(s) to conduct (l
                          transactIOn WIth the knowledge or a reason to beheve II would be a violation of
                          Federal firearms or e.xplosives laws or regulations.

                       DICE pernuts an Informant to work with another ngency If ICE is d ireeting the
                         mformant or If the mfonnnnt IS pnmnnly supporting an ICE investigation, the
                         operalion of lind inform,lIion from lhe infonnant must comply with ICE and
                         Departmenl of Homeland &cunty (DHS) guidelines and be subj(:ctcd 10 ICE
                         sUltablhty parameters.

                       E AIT permlt<; an mformant to      wori:: wIth another agency If ATF IS directing lhe
                         mformant or If the Informant     IS pnmanly s upport ins an ATF investi gation. the
                         operatIOn of and infon\llliion   from the mformnnt must comply with ATF and
                         Department of Justice (DOl)      gUidelines and be subjected to A1F s uit.1bil ity
                         parameters.

                       F   In cases where AIT is conductin g an investigation and Its confidential informant
                           IS Illegally In the United States. ATF will be respons ible for apply ins 10 ICE for
                           approval of the proper parole documentation.

                  yl   C onDie ! Reso 1uljo u

                       A The Agenclcs are cOnlmitted to close coopcratiolL Efforts to resolve interagenc)'
                         conflIcts Will begm at the lowest possIble level The NatLonal Ile.1d<luarters
                         clements rely on the sound Judgment of An=and ICE SpecIal Agents III Charge,
                         who should be able to en$urc deconniction of activities in the field.

                       B In those Instances where COml)eting eqUltlCS prcvenl the field clements from
                         reachIng a mutually satisfactory conclUSion on any mailer under the purview of
                         thi s MOli, each Agency will promptly refer the matter to theIr appropriate
                         headquarters elements (or resolution The ICE Director. OOice of In vestigations,
                         and the ATF AssIStant DIrector. Flcld O perations. WIll serve as the adjudicators
                         for COnflict resolutions.

                  VI! Cgu sll'Siou

                       A. ThIS MOV IS en"'ectIVe upon the date of the last sIgnature by the authorized
                          r~rCSenlal!Ve of each Agency and shall remaU"l. In effect untIl tcnninate<l by
                          either Age ncy.



                                                                5




www.oig.dhs.gov                                                 72                                                OIG-13-49
                                 OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security




                  B. 'I1lis l\ fOU m..), be amended or modified only by wriUc.1l agreement and onl y by
                        an authorized representative of ATF and ICE. 111e amt,.1ldment or modification
                        shall I.1ke effect on the date of the last signature.

                  C. ATF or ICE may Ic.-rminate their p3rticipation in this ? IO U at any time afier
                     giving 30 days writlen notice of their inlent to withdraw to the other Agency.

                  I).   Nothing in th is MOU is intended to conflict with current law or n:gulation or the
                        d i~ti"es  of the pOlrties. If any teml of this ~ I OU is inconsistent with such
                        authority. then Ihat lenn shall be invalid. but the remai ning terms and conditions
                        ofthis ?fOU shall «:main in fu ll force and effect.

                  E. 111is   ~IO is an intema l arrangement between the Agencies and does not create
                        or confer any right or bc.1lefit on any other JX-'1'Son or parly. priv3tc or public .

                  F. Each Agency is responsible for any expenses it incurs .15 a result of acti vities
                     under this MOU. Nothing in this ~fO is meant to imply that Congress wi ll
                     appropriate funds for activities under this ~IO U.




                  ~
                  Kenneth r.. felsoll
                  Acting Director
                  BUTC3U of Alcohol. Tob3cco.
                                                                  ~ As sistant Secretary
                                                                    u.s. Im migrat ion 3nd C ustoms
                  Fire.1nns :lnd Explosives (ATF)                   Enforcement (ICE)


                  Date
                         LMJ~ Uk:;;
                                                                    Date~~109




                                                              6




www.oig.dhs.gov                                              73                                                 OIG-13-49
                               OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security




                                       Annex Onc- Legal             A uthorities

                  A. Bureau of Alcohol. Tobacco. Fircanns and Exptosivcs

                     ATF's invcstigative jurisdiction is quite broad and includes the admini stra tion and
                     enforcement orflreamls nnd explosivcs laws and regulations. to include
                     investigating fcder:ll crimes invo lvi ng the possession. liccnsing. transporting. sale
                     and receipt offi rearnls. explosi\·es and ammun ition in interstate or foreign
                     commerce.

                     I. T itle 28. United Stales Code. § 599A establishes A'I1:: as an agency within the
                        Dcp.1 11ment of Justice (001) and del egates to ATF through the Attorney
                        General the responsibility to investigate:

                         a. criminal and regulatory violations of the Federal firearms, explos ives ,
                            arson. alcohol. and tobacco smuggl ing laws: and
                         h. anyotller function related to the investigation of violeIII crime or domestic
                            terrorism that is delcgatcd to the B Urc.1 U by the Attorney General .

                    2. Addit ionally. pursuant to Title 28. Code of Fe<1ernl Rcgulations§ 0. 130. the
                       Attorney General. the Deputy Attomey General and the Director of A TF arc
                       directed to in\'(''Stigate. administer. and enforce the Jaws re lated to alcoho l.
                       tobacco. firearms. explosives and arson to specifica lly include exercising
                       these functions and powers under the following legal authorities. abbreviated
                       for the purpose of this ~ IOU . 111cse :mthorities. in P;lrL ;Ire ;IS fo llows, but ;Ire
                       Not limited to:

                    3.    18 U.S.c. chapters -l-O (explosives) and 44 (the Gun Control Act also known
                         as GCA). which include. but are not limited to:

                         a. In v e s t i got Ion s   a 6'iq!qtjqnvQ(J 8 US C   §§ 84?UI awl 9'?IgJ

                                      "llicre are cel1ain categories of persons whom Congress has
                                      deemed ineligible to possess explos ives and fircamufammunition.
                                      These violations fall within the Federal explosives Jaws and the
                                      Gun Control Act for whieh lhe authority
                                      To investigate has specifica lly been delegated to A TF.

                         b. R evuWltno q (federql ffl'eqmls ( ,ICe m ees (fFt.d

                                II    'Ille regulation of the fire.1nns industry is within the sole purview
                                      of ATF. '111e statutes nnd regulations relating to the inspection of
                                      a FFL's records and inventory are very specilic to ATF and arc
                                      authorities not shared "ith :my other Fed(;,Tal agency. Sec 18
                                      U.S.C. § 923 (8) and 27 FR Part 478 . Any misuse of the FFI...
                                      their employee(s). or any of the records required to be kept by


                                                            7




www.oig.dhs.gov                                             74                                                    OIG-13-49
                                       OFFICE OF INSPECTOR GENERAL
                                                Department of Homeland Security




                                                 the FFL may put their license at risk and s ubject them to cri mina l
                                                 and administrative action.

                                c    Rgerdql/Q/1 QCEedeml £wlnS/ve..y I ir gmw£ and & nl!lttgg \' ( EEl 51

                                        Ill .    ATF is responsible fo r administering the regulatory provis ions.
                                                 including the licensin g of dealers. users. manufadurcn and
                                                 importers of explos ives as well as the storage of explosives.
                                                 Additionally. ATF Offi cers have the right of entry and
                                                 exami nation of required records. pl3ces of storage. as well as
                                                 inventory. ~ 18 .S.C. §§ 843 and 846 and 27 CFR Part 555.
                                                 Any misuse of th e FEL. their employcc(s). or any of the records
                                                 required to be kept by the FEL rna)' put their license at risk and
                                                 subject them 10 c".';mina l and administrative action .

                           4. 26 U.s.C Olaptcr 53 (N:ltional Firearms Act also known as r-..1"fA):

                           5. Section 38 of the Anns Export Control Act. as amended. 22 U.S.c. § 2778
                              (relating to the importation of items on the U.S. Munitions Impol1 List).
                              except violations relating to cxl>011ation. in transit. tempor.uy iml>Ol1. or
                              temporary export transactions:

                           6. Any ofTcnse relating to the primary jurisdiction of the Bureau of A.lcohol.
                              Tob.1cco, Fireamls and Explosives that the United Sl.1tcs would be obligated
                              by a 111ultilateral trea ty either to extradite Ule alleged oll"ender or 10 submit the
                              case for prosecution if the offender wen: found within the territory, of the
                              United States:

                           7. Subject to the limitations of3 u.S.C. § 301. exercise the authorities of the
                              Allomc), Gencra l under section 38 Or Ule Anns Export Control Act. 22 .S.C.
                              § 2778. relating to U1C importation of dcfense art icles :md defense serv ices.
                              illc luding those authorities sci fort h in 27 CFR part "'4-7.

                      B U.S. Immigration and Customs Enforcem'.'n l

                           ICE was created pursuan t to Ute '4Imeland Security Act of2002 J. Pub. L. No.
                            107-2%. 116 Stat. 2 135 (2003). which transferred to the Agency the investigative
                           authorities of the U.S. Customs Service and the Immigra tion & Naturalization
                           Service. Numerous provisions th roughout the .s. Code either express ly or
                           implicit I)' authorize ICE to enforce CXl>ort Jaws. ICE's aUlhorities. abbrevi ated
                           for purposes of this MO • include. but are not lim ited to:




                  l References 10 !he Homeland Sccunry Act 01'2002 Include! the associated Depart menl of Homeland
                  Sectmly Reorgarlll8liOn Plan ofNovembcr 25,2002. and Ihe RC0fK8ml81iOn Plan MocbficallOfI ror the
                  DcpllrtlllCli1 of Homeland SccUl'lry of January 30, 2003.


                                                                         8




www.oig.dhs.gov                                                         75                                               OIG-13-49
                            OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security




                   1. As customs offi c(:rs. ICE agl.:nts have lhe i1uthority to enforce l.."Xport laws.
                      including those pertaining to fireanns. As a general matter. the border search
                      exception to the Fourth Amendmt.'TLt pcmlits customs oOicl;.'J's to conduct
                      se:lfche:'i for merchandi se, including fireanns. It the border. the functi onal
                      equival<.:nt of the border. or the extended border wi thout a warrant and without
                      probnble cause.

                  2. "Illrough tile Anns Export Control Act (AECA) and its imp lementing
                     regulations. the International Trallicking in Anns Regulations (!TAR). ICE is
                     granted:

                         a. Authority to inspect tile loading or unloading of any vessel. vehicle, or
                             aircraft for the pUrpo5C of ensuring obs(;rvance of the ITAR. 22 C.F.R .
                             § 127.4:
                         b. Authority as the sole investigativc ag(.'TIcy to enforce violations o f
                             IT AR export provis ions. barring foreign counterintelligence mailers.
                             22 C.F.R. § 127.4 ;
                         c. Authority to deuin or seize an)' export or atlempted export of defense
                             articles. contrary to the ITAR. 22 C.F.R. § 127.4:
                         d. Aut h 0 r i 1 Y to inspect records required to be maintained by the
                             Directorate of Defense Tradc Controls (DOTe), Department of State.
                            22 C.F.R. § 122.5(b);
                         e. Authority to investigate violations of the e.'\port provisions of22
                            C.F.R § 127. 1. including violations of registration requirements as
                            n.:quin.:d by the DOTe. 22 C. F.R. § 127.4.

                  3. Under the Export Administration Act (EAA) and its implement ing
                     regulations. the Export Administration Regulations (EAR). which continue in
                     efTcct through Executi vc Ordcrs and Federal Register Notices issued purs uant
                     to thc International Emergency Economic Powers Aet (IEEPA), ICE has the
                     authority to invcstigate. detain or seize any export or attempted export of dual-
                     use commodit ies (or "Commerce Control List" commodities).

                         a. ICE has authori t), to employ the LEEPA. in relation to the illegal
                            export of sporting shotguns regulated by the Department of
                            Commerce. nnd enforcement of sanctions against terrorist and drug
                            tralTicking organizations regulated by the Department of Treasury.
                            Office of Foreign Assets Control.

                  4. 'Ille USA Patriot Improvement and Reauthoriz.1tion Act of 2005. Pub. L.
                       10. 109- 177. 120 Stat. 192 § 3 11 (2006). codified a new statute. Smuggling
                     goods from the United St:ltcs. at 18 U.S.c. § 554. :md added related seizure
                     and forfeiture Jaws for such merchandise und(.-'(" 19 U.S.c. § 1595a. 18 U.S .C.
                      § 554 was codified in the Customs chapter of Title 18 (Olapler 27).




                                                       9




www.oig.dhs.gov                                        76                                                  OIG-13-49
                                   OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




                  It is understood by the Agencies that if the statutory and regulatory audlOrities change.
                  dlC Annex of Lega! Authorities ma y be amended:at the agreement of the parties. at a
                  level lower than the Dir~ctor and Assist.1n1 Secretary. if desift;.'Cl by either agency but that
                  such ch ange does 110t. of itself. inva lidate the MOU. if acceptable to both agencies.




                                                                                        10




www.oig.dhs.gov                                                 77                                                   OIG-13-49
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security

   Appendix D
   Major Contributors to This Report
   Douglas V. Ellice, Chief Inspector
   Elizabeth A. Kingma, Senior Inspector
   Lindsay K. Clarke, Inspector
   Isabelle M. Gama, Intern




www.oig.dhs.gov                            78                    OIG-13-49
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

Appendix E
Report Distribution
Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
DHS Component Liaison
Acting Chief Privacy Officer

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate
Michael T. McCaul, Chairman, Committee on Homeland Security, U.S. House of Representatives




www.oig.dhs.gov                                  79                               OIG-13-49
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
